<html>
<title> - CLIMATE SERVICES: SOLUTIONS FROM COMMERCE TO COMMUNITIES</title>
<body><pre>[Senate Hearing 111-488]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-488
 
                   CLIMATE SERVICES: SOLUTIONS FROM 
                        COMMERCE TO COMMUNITIES

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 30, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
54-915                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             SAM BROWNBACK, Kansas
TOM UDALL, New Mexico                MEL MARTINEZ, Florida
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
                   Bruce H. Andrews, General Counsel
   Christine D. Kurth, Republican Staff Director and General Counsel
              Brian M. Hendricks, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 30, 2009....................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Begich......................................    19
Statement of Senator Cantwell....................................    21
Statement of Senator Nelson......................................    23

                               Witnesses

Hon. Gary F. Locke, Secretary, U.S. Department of Commerce.......     3
    Prepared statement...........................................     6
Hon. John P. Holdren, Ph.D., Director, Office of Science and 
  Technology Policy, Executive Office of the President...........     8
    Prepared statement...........................................    11

                                Appendix

Response to written questions submitted by Hon. John D. 
  Rockefeller IV to Hon. Gary F. Locke...........................    33
Response to written questions submitted to Hon. John P. Holdren, 
  Ph.D. by:
    Hon. John D. Rockefeller IV..................................    36
    Hon. David Vitter............................................    39


        CLIMATE SERVICES: SOLUTIONS FROM COMMERCE TO COMMUNITIES

                              ----------                              


                        THURSDAY, JULY 30, 2009

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:37 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. According to my watch, it's precisely 2:30, 
so it's time to start the hearing.
    [Laughter.]
    The Chairman. And let me just make an opening statement, 
and then we're going to hear from our witnesses. And, you know, 
we've got all kinds of smart people sitting behind them who, I 
don't know, I just can't bear the thought of you three sitting 
back there saying nothing at all, but we'll see how it works 
out. If one of them makes a mistake you can just correct them.
    [Laughter.]
    The Chairman. OK. Our Committee has much to do with climate 
change. We spend much time on aviation and all kinds of other 
things, and, we're heavily vested in climate change, and we 
have been for years, but not enough people know that. That's 
why our Secretary of Commerce is here and our head of OSTP is 
here, John Holdren.
    Our climate shapes every aspect of our lives. It's one of 
the most important pieces of legislation that we will probably 
ever do in the history of this country. Climate determines 
where we build our roads, it determines where people build 
homes, whether they build homes; it effects our health, it 
controls all kinds of our energy. Over one-third of our 
Nation's gross domestic product is affected by weather and 
climate. I don't think most people know that. I didn't either, 
until I prepared for this statement.
    Climate change is happening. The scientists agree on that. 
People who say it isn't happening, have a nice day. We have 
observed rising temperatures and sea levels, reduced snow and 
ice, longer growing season, and changes in river flow. There's 
terror about water in the West. And there ought to be. You 
know, I mean, this--things are happening everywhere. How people 
can ignore any of it, I just don't understand.
    So, these challenges continue to grow, but so does our 
knowledge of the climate system, the reach of our scientific 
research. It just happens that our President has surrounded 
himself with absolutely brilliant scientists, and he's 
fascinated by technology and research. And so, we couldn't be 
better positioned to walk into these responsibilities.
    We have a responsibility to share what we know, widely, 
much like trying--you know, the public is sort of saying, 
``Well what are they doing up there, on healthcare? We don't 
understand.'' Well, that's understandable. This is, in some 
ways, much more complicated and much more abstract, because 
it's not immediate, it's not something you take out of your 
pocket and pay to an insurance company. You may not have a 
house or have a pocket to take something out to give to an 
insurance company if climate change isn't being addressed in 
the proper fashion.
    We continue to learn so much. Every day, dedicated 
scientists and entrepreneurs explain new challenges and 
highlight new opportunities, and it gives me tremendous hope, 
particularly when I'm faced with the kind of people I'm looking 
at right now. However, the reality is that, unless that 
information reaches the people who are confronting climate 
change on the front lines, it will have been for naught. It is 
time to take the science out of the laboratories and bring it 
into our communities, to make it a part of what our people 
trust, believe, and depend on.
    So, this is about putting climate science to work in 
people's lives, to protect public health by predicting the 
spread of infectious diseases due to climate change, to 
anticipate droughts and take actions to reduce their economic 
and environmental impacts, to adjust our building codes to 
withstand the increased storm intensity and flooding. It's also 
about making those tools, and the climate science behind them 
available--making it transparent and useful to everyday 
Americans.
    This hearing's purpose, and a top priority of this 
committee, is to make sure that the essential facts--most 
importantly, research and the latest technology that have come 
directly from sound climate science--finds its way directly to 
the people who can put it to work for themselves and their 
families every day. This means community advocates and business 
leaders, public and private and government entities, and local, 
State, and Federal lawmakers.
    I would also like to note, when it comes to climate change, 
that the Commerce Committee, as I mentioned earlier, has a long 
history of dealing with this crucial intersection where science 
meets public policy, and the hard work of making a difference. 
And so, today I look forward to discussing these great 
challenges in--not all of them, but some of them--and the 
Federal Government's work to translate climate science into 
information and services for users to plan for, and respond to, 
the effects of climate change, which are going on everywhere.
    The Department of Commerce, through efforts like the 
National Climate Service, and the Office of Science and 
Technology Policy, continue to look for innovative new ways to 
share information and address mounting public needs, and I'm 
confident that their leadership will bring the best research 
and the latest technology front and center.
    So, I, for one, am very honored that our two witnesses are 
here, that they've taken the time. I think that you're on a 
time constraint, aren't you? No? I think--aren't you?
    Secretary Locke. Moderate.
    The Chairman. Is it 3:40?
    Secretary Locke. I think we can go a little bit beyond 
that.
    The Chairman. You do? OK. Well, but be very honest with me.
    Secretary Locke. Alright.
    The Chairman. Our Commerce Secretary brings valuable 
insight to the challenge facing climate change on the global 
stage. As Director of the White House Office of Science and 
Technology Policy, John Holdren, who has already had an impact 
on my life, is charged with a broad mandate of developing and 
implementing sound science and technology policies and budgets, 
collaborating across agencies--good luck, John----
    [Laughter.]
    The Chairman.--while engaging the wider science and 
engineering communities in that mission. So, together I hope we 
can look specifically at bringing all of our stakeholders to 
the table, helping them stay competitive in emerging markets, 
and making sure they are investing in our energy future.
    So, this hearing is a great opportunity to highlight how 
sound climate science can drive our economy, empower 
stakeholders with the tools to respond and thrive.
    I thank you.
    And I turn now to our good Secretary, Secretary Locke.

          STATEMENT OF HON. GARY F. LOCKE, SECRETARY, 
                  U.S. DEPARTMENT OF COMMERCE

    Secretary Locke. Thank you very much, Chairman Rockefeller. 
It's good to see you again. And I want to thank you for the 
opportunity to discuss the Department of Commerce's climate 
capabilities.
    I'm also pleased to be joined by Dr. John Holdren, Director 
of the White House Office of Science and Technology Policy, 
OSTP. The Department and OSTP are close partners on the climate 
issues that I want to talk about today.
    But, before I do that, I also want to point out, in the 
audience behind me is Dennis Hightower, the President's nominee 
to be Deputy Secretary of Commerce. And I believe that he has 
already met with you and perhaps is scheduled for his 
confirmation hearing next week.
    Also, I want to introduce and acknowledge Jane Lubchenco, 
who is our Administrator of NOAA, who will, at the end of the 
month--end of August--be leading the United States delegation 
to the World Climate Conference in Geneva as Administrator of 
NOAA, but, more importantly, on behalf of the entire U.S. 
Government.
    Climate change presents America with a daunting challenge, 
but also an historic opportunity. I'm here today to explain how 
the Department of Commerce is uniquely situated to help America 
tackle both of them.
    First, the challenge. The world's climate is unequivocally 
going through dangerous and unpredictable changes. Surface air 
and ocean temperatures are increasing, sea levels are rising, 
and widespread melting of glaciers and Arctic sea ice is 
accelerating. And, just this month, NOAA reported that the 
world's ocean surface temperature was the warmest on record for 
June, breaking the previous high set in 2005. These trends are 
causing more extreme weather, coastal and agricultural 
degradation, droughts, and wildfires. And, just yesterday, 
Seattle reported an all-time high in its temperature, reaching 
103 degrees. Vancouver, Washington, reached 107 degrees. 
Seattle is expected to hover at the 100-degree temperature mark 
for this entire week.
    America must take the threat of climate change seriously, 
but first we have to understand it, and that's where NOAA has 
been indispensable for decades. NOAA's mandate for climate 
activities was established in 1978, and its capabilities span 
operational climate observing networks, global greenhouse gas 
monitoring, climate predictions and projections, climate 
research, and climate data stewardship. Indeed, with respect to 
the World Climate Data Center--that's the world's largest 
repository of climate and paleoclimate data--that is maintained 
by NOAA. With all the measurement devices around the world 
measuring greenhouse gases, 66 percent of the world's 
measurement systems are maintained by NOAA.
    So, NOAA has monitored and measured the carbon cycle in the 
atmosphere and oceans for 40 years. Its measurements and 
modeling of carbon dioxide and other greenhouse gas 
concentrations in the atmosphere are among the most 
comprehensive in the world.
    Commerce's National Institute of Standards and Technology, 
NIST, has also worked with NASA and others to develop new 
satellite instruments that measure the Sun's light ten times 
more accurately than previous instruments.
    This information that I've cited isn't merely of academic 
interest. As you've indicated, these measurements will play an 
important role in verifying the effectiveness of our domestic 
and international policies through independent verification of 
emissions from both domestic and international sources, and 
allow us to understand whether emission-reduction efforts on 
the ground, by citizens, business, and government, are having 
their intended effects on our climate.
    NOAA uses its ocean and climate science to support its 
mandated coastal and ocean stewardship responsibilities, 
including fisheries management, conservation of coastal 
habitat, and protection of endangered species, such as salmon. 
In addition, NOAA provides support to other Federal agencies, 
State and local governments, but also, critically, to the 
private sector, as they make decisions about adjusting to 
climate changes. For example, NOAA helped answer the call of 
Western Governors for better monitoring and early warning of 
droughts. And, thanks to this Committee, NOAA is working with 
its Federal agency partners to respond, through the National 
Integrated Drought Information System. This is critical to our 
economy, as unchecked drought causes average annual losses to 
all sectors of the economy of $6 to $8 billion a year. And 
NOAA's Air Freezing Index Program has helped the U.S. 
construction industry make better decisions about when and how 
to pour concrete building foundations, saving approximately 
$300 million in material costs every single year.
    In the years ahead, a changing climate will undoubtedly 
force America to rethink our water, energy, transportation and 
agriculture infrastructure, in light of new wind, water, and 
temperature patterns. Decision-makers at all levels, public and 
private, will depend on NOAA to chart a viable way forward.
    This is America's climate challenge. But, as I said at the 
outset, our challenge also presents an opportunity. The 
scientific and technological innovations that the world will 
need to mitigate climate change can also spawn one of the most 
promising areas of economic growth of the 21st century. And I 
want to see America at the forefront of this innovation.
    I just returned from China with Secretary of Energy, Steven 
Chu, and China is making record investments in clean energy 
technologies. Our conversations with the Chinese officials 
yielded tremendous opportunities for partnership, but also 
showed the way for new markets for U.S. companies. And that 
means, also, jobs for Americans. But, our conversations with 
the Chinese raised a serious question, Is the United States 
going to be a leader in addressing climate change, or will we 
fall behind? I believe that we are moving in the right 
direction.
    Indeed, the climate change and energy security legislation 
under consideration in the Congress will create new incentives 
for energy-efficient technologies, products, and services and 
reduce our overdependence on foreign oil. These incentives will 
foster the creation of new businesses and the jobs, American 
jobs, that will come with them.
    The entire Department of Commerce has already been 
assisting in this transformation, and we intend to do even 
more. The Department is promoting ``green'' innovation, 
protecting the intellectual property behind new technologies, 
and developing standards and measurements that will enable 
innovations, like the smart electrical grid.
    The Department is also supporting the commercialization of 
green ideas, promoting climate-friendly economic development, 
and helping small- and medium-size manufacturers make their 
production processes more sustainable.
    And the Department is highlighting emerging commercial 
opportunities, promoting the export of new green products and 
services, and encouraging industry to become more involved in 
international climate change discussions.
    Mr. Chairman, the Department of Commerce's Congressional 
mandate for climate activity, starting in 1978; our 
internationally recognized expertise in climate change 
research, as well as all of the data that we hold; and our 
mission to advance U.S. businesses and innovation enable us, 
the Department of Commerce, to lead America's efforts to meet 
our climate challenges and capitalize on these opportunities.
    I thank you again for the opportunity to address this 
Committee and I look forward to your questions.
    Thank you very much.
    [The prepared statement of Secretary Locke follows:]

         Prepared Statement of Hon. Gary F. Locke, Secretary, 
                      U.S. Department of Commerce

    Chairman Rockefeller, Ranking Member Hutchison, and other honorable 
members of the Committee, thank you for the opportunity to discuss the 
Department of Commerce's climate capabilities. I am pleased to be 
joined by Dr. John Holdren, Director of the White House Office of 
Science and Technology Policy (OSTP). The Department and OSTP are close 
partners on the climate issues I will talk about today.
    Climate change presents America with a daunting challenge . . . and 
an historic opportunity.
    I am here today to explain how the Department of Commerce is 
uniquely situated to help America tackle both of them.
    First, the challenge:
    The world's climate is unequivocally going through dangerous and 
unpredictable changes.

  <bullet> Surface air and ocean temperatures are increasing,

  <bullet> Sea levels are rising,

  <bullet> And widespread melting of glaciers and Arctic sea ice is 
        accelerating.

    Last month, the U.S. Global Change Research Program released a 
landmark report, Global Climate Change Impacts in the United States. 
This body of work, a product of 13 Federal agency and outside experts 
with leadership from the Department of Commerce's National Oceanic and 
Atmospheric Administration (NOAA), confirms many of the climate's 
troubling changes and gives a comprehensive picture of projected future 
impacts on specific regions and sectors. We are seeing the impacts of 
this change in our own backyards in every region of the country, from 
extreme weather and coastal impacts to drought and wildfire trends.
    These trends should trouble anyone concerned about the health of 
America's environment and the vitality of our economy.
    Just this month, NOAA reported the world's ocean surface 
temperature was the warmest on record for June, breaking the previous 
high set in 2005. Warmer oceans could create dangerous changes in 
marine ecosystems, including widespread bleaching of coral reefs in 
places like the Florida Keys. That development alone may significantly 
impact thousands of Floridians who depend on fishing and tourism for 
their livelihood.
    If America is to avoid the most damaging effects of climate change, 
we have to first understand it--and that is where the Department of 
Commerce is instrumental.
    The Department of Commerce is a leader in climate change research 
and monitoring, providing critical data and services to all levels of 
government and the private sector--and helping companies and 
communities understand and adapt to climate change.
    NOAA's mandate for climate activities was established in 1978, and 
its capabilities span operational climate observing networks, global 
greenhouse gas monitoring, climate predictions and projections, climate 
research, and climate data stewardship.
    For example, NOAA has monitored and measured the carbon cycle in 
the atmosphere and oceans for 40 years, taking observations on the 
ground, under the sea, and in space. NOAA's measurements and modeling 
of carbon dioxide and other greenhouse gas concentrations in the 
atmosphere are among the most comprehensive in the world--and are 
widely considered among the best available modeling of carbon sources 
and sinks.
    NOAA's measurements of carbon dioxide concentrations also play an 
important role in monitoring ocean acidification. As the ocean has 
absorbed greater amounts of carbon dioxide over the past two centuries, 
its acidity has increased by 30 percent. Simply stated, rising acidity 
in the ocean could potentially short-circuit the marine food chain--
which would undoubtedly have negative effects on commercially important 
species like oysters and salmon.
    NOAA's climate monitoring is assisted by other agencies within the 
Department as well as other Federal agencies. Our National Institute of 
Standards and Technology (NIST) worked with NASA and others to develop 
new satellite instruments that measure the Sun's light ten times more 
accurately than previous instruments. Space-based climate monitoring is 
enabled by partnerships with NASA.
    This information isn't merely of academic interest.
    These measurements will play an important role in verifying the 
effectiveness of our domestic and international policies through 
independent verification of bottom-up emissions--from both domestic and 
international sources--and allow us to understand whether emissions 
reductions are having their intended effects on our climate.
    NOAA also uses its ocean and climate science to support its 
mandated coastal and ocean stewardship responsibilities--including 
fisheries management, conservation of coastal habitats, and protection 
of endangered species, such as salmon. Incorporating climate impacts 
like sea-level rise and increasing ocean temperatures into long-term 
planning for these public trust resources is essential to ensuring 
their resilience and continued economic and social benefits in a 
changing world.
    In addition, NOAA provides critical information and services to 
other Federal agencies, state and local governments, and the private 
sector as they make decisions about adjusting to climate change.
    When I was Governor of Washington, I, along with other western 
Governors, needed information to understand and predict drought, which 
causes average annual losses to all sectors of the economy of $6 to $8 
billion. (Economic Impacts of Drought and the Benefits of NOAA's 
Drought Forecasting Services, NOAA Magazine, September 17, 2002.) It 
was not just about preparing our agricultural sector--we also needed 
that information to guide infrastructure investments that required an 
understanding of long-term regional climate trends. Thanks to this 
Committee, NOAA is working with its Federal agency partners to respond 
through the National Integrated Drought Information System. Now, 
decisionmakers can visit drought.gov to receive early warnings about 
anticipated droughts.
    Another real-world service is the climate data that NOAA's air 
freezing index program provides. It allows building foundations to be 
more economically constructed, reducing the materials costs of the U.S. 
construction industry by approximately $300 million per year. (Economic 
Value for the Nation, NOAA Satellites and Information, September 2001.)
    The Department of Commerce is working with our Federal partners, 
including the National Science Foundation, the Departments of the 
Interior, Agriculture, and Energy, the Environmental Protection Agency, 
and Dr. Holdren's Office of Science and Technology Policy, among 
others, to further bridge climate science and the growing needs of 
public and private decisionmakers.
    In the years ahead, a changing climate will undoubtedly force 
America to rethink our water, energy, transportation and agriculture 
infrastructure in light of new wind, water and temperature patterns. 
Decisions on where and how we build a bridge, a levee, an oil pipeline 
or an irrigation system will all have to take climate change into 
account. NOAA will be there to inform a viable way forward.
    This is America's climate challenge. But, as I said at the outset, 
our challenge also presents an opportunity.
    The scientific and technological innovations the world will need to 
mitigate climate change can spawn one of the most promising areas of 
economic growth in the 21st century--and I want to see America at the 
forefront.
    I just returned from China, where they are making significant 
investments in clean energy technologies. My conversations with Chinese 
officials yielded tremendous opportunities for partnership, and new 
markets for U.S. industry. But they also raised a serious question:
    ``Is the United States going to be a leader in addressing climate 
change, or will we fall behind?''
     I believe we are moving in the right direction.
    Indeed, the climate change and energy security legislation under 
consideration in Congress will create new incentives for energy 
efficient technologies, products and services and reduce our dependence 
on foreign oil.
    These incentives will drive demand that will foster the creation of 
new businesses and the jobs that come with them.
    The entire Department of Commerce stands ready to assist in this 
transformation.
    The Department of Commerce is a vital ally of Main Street American 
business--serving both as an enabler of innovation and sustainability 
at home as well as the advocate for U.S. businesses around the world. 
We can help foster ``green'' and ``blue'' jobs that will be created by 
new businesses offering climate solutions.
    The Department is encouraging green innovation. Our Patent and 
Trademark Office protects the intellectual property behind new 
technologies, while NIST develops standards and measurements that 
enable innovations like the Smart Grid, which has the potential to use 
technology to help deliver electricity more efficiently, save energy, 
and reduce costs to consumers.
    The Department is supporting the commercialization of green ideas. 
The Economic Development Administration is helping communities adapt in 
this changing environment, while sustaining their economic development. 
NIST's Hollings Manufacturing Extension Partnership is helping small 
and medium-sized manufacturers make their production processes more 
sustainable.
    And, the Department's International Trade Administration is 
highlighting emerging commercial opportunities, promoting the export of 
new green products and services, and encouraging industry to become 
more involved in international climate change discussions.
    Mr. Chairman, the Department of Commerce's expertise in climate 
change research and our mission to advance U.S. businesses and 
innovation, enables us to lead America's efforts to meet our climate 
challenges, and capitalize on the opportunities.
    I thank you again for the opportunity to address this Committee, 
and I look forward to your questions.

    The Chairman. Thank you, Mr. Secretary.
    Dr. Holdren?

 STATEMENT OF HON. JOHN P. HOLDREN, Ph.D., DIRECTOR, OFFICE OF 
    SCIENCE AND TECHNOLOGY POLICY, EXECUTIVE OFFICE OF THE 
                           PRESIDENT

    Dr. Holdren. Chairman Rockefeller, Senator Begich, it is a 
great pleasure to be with you again in this room, especially so 
with my confirmation safely behind me.
    It's a particular pleasure to be here in the company of my 
colleague, Secretary Locke, and to have both of us backed, as 
it were, by Under Secretary Lubchenco, who, as you know, went 
through the confirmation process with me in tandem.
    The latest and best scientific information forms----
    The Chairman. You don't say that with a great deal of 
warmth--not with respect to Jane, but with respect to the 
process. And you shouldn't.
    [Laughter.]
    Dr. Holdren. I won't comment further on that.
    The Chairman. OK.
    [Laughter.]
    Dr. Holdren. But, I'm delighted it's behind us.
    [Laughter.]
    Dr. Holdren. The latest and best scientific information 
forms the bedrock on which effective policy to combat and cope 
with climate change has to be built. To assist the government, 
and society as a whole, understand, mitigate, and adapt to 
climate change, the agencies of the Federal Government deploy a 
wide range of powerful science and technology resources. The 
U.S. Global Change Research Program, USGCRP, brings together 
into a single interagency program the essential capabilities 
for research and observations that are widely distributed 
across these government agencies, 13 of them in all. The USGCRP 
is managed by a director from one of the participating 
agencies, currently NASA, with the help of a program office and 
interagency working groups that plan future research and 
crosscutting activities, including communications, decision 
support and information and data issues.
    OSTP and OMB, the Office of Management and Budget, work 
closely with the program office and the working groups to 
establish research priorities and funding plans to ensure that 
the program is aligned with the Administration's priorities and 
reflects agency planning.
    The Climate Change Technology Program, CCTP, is the 
technology counterpart to USGCRP. Its aim is to accelerate the 
development of new and advanced technologies to address climate 
change, focusing on energy efficiency enhancements and 
technologies that can reduce, avoid, or capture and store 
greenhouse gas emissions. The Department of Energy serves as 
the lead agency for that effort. Twelve agencies participate in 
the interagency coordination efforts of the CCTP.
    Clearly, the USGCRP and the CCTP need to coordinate their 
efforts in order to get the maximum benefit from each effort 
and from the combination. The necessary interaction has, 
unfortunately, not always occurred. OSTP is now working with 
DOE and with OMB to help create the necessary coordination 
between the USGCRP and the CCTP to help ensure maximum flow and 
synergy between these science and technology programs.
    If I may, Mr. Chairman, I'd now like to elaborate briefly 
on two aspects of all this that I believe are of particular 
interest to the Committee and that are treated in some detail 
in my written statement: the coordination of Earth observations 
and the development of an effective climate-services capability 
in the Federal Government.
    First, observations. Making the observations needed to 
determine how the climate is changing, and how those changes 
are affecting environmental conditions important to human well-
being, is the starting point for all understanding of the 
climate change challenge. And this domain of activity, all by 
itself, is an immensely complicated endeavor requiring 
cooperation and coordination across agencies and levels of 
government, as well as internationally.
    The myriad of observations being made today vary widely in 
purpose and scope, and are distributed among literally hundreds 
of programs under the purview of Federal agencies and other 
institutions, domestic and international. To a large degree, up 
until now these observations have been only loosely coordinated 
and integrated, but that shortcoming is now widely recognized, 
the needs and opportunities for doing better have been analyzed 
in reports produced inside and outside the government, and 
progress is starting to be made.
    The concept of an integrated Earth-observing system has 
been articulated and increasingly fleshed out by the Group on 
Earth Observations, GEO, which is a consortium of 79 countries, 
the European Commission, and over 50 international 
organizations. Much of that body's effort has been focused on 
creation of something called the Global Earth Observation 
System of Systems, which coordinates Earth observations at the 
international level, facilitates the sharing and productive 
application of global, regional, and local data from 
satellites, ocean buoys, weather stations, and other surface 
and airborne Earth-observing instruments. The United States 
component of that effort, called USGO, is a standing 
subcommittee of the National Science and Technology Council, 
which is coordinated by OSTP.
    As Members of this Committee know, however, the outlook for 
U.S. space-based Earth observation systems is clouded, if 
you'll forgive my use of that term in this context; and, in 
particular, continuity of our weather forecasting capabilities 
is threatened by reductions and delays in the three agency 
National Polar-orbiting Environmental Satellite System 
Program--NPOESS, for short--and plans for climate change 
measurements by this system have been scaled back. In addition, 
a gap in land imagery is now almost inevitable, and will impact 
multiple societal needs, including agriculture, biodiversity, 
ecosystems, and water.
    Clearly, we need to increase oversight and improve 
interagency coordination in our Earth-observation satellite 
programs. We need to proactively manage these programs to avert 
future cost and schedule overruns. Agencies need to work 
together to manage the contractors building the satellites and 
to demand cost and schedule accountability.
    As Members of this Committee and I agreed during my 
confirmation hearing, a large part of the responsibility for 
seeing that this happens rests on OSTP. In this connection, 
getting NPOESS back on track has been, and remains, a 
particularly high priority for me and for others in the 
Administration's leadership team.
    I started convening meetings of the relevant officials in 
the three NPOESS agencies--NASA, NOAA and DOD--to address this 
issue immediately after I was confirmed, and all are now 
committed to cooperating in solving the problems that have 
plagued this critically important program.
    We are now forming a task force, within the Executive 
Office of the President, that will meet regularly with the 
leaders of the NPOESS effort in NASA, NOAA, and DOD to monitor 
progress and help overcome obstacles on the way to fixing this 
program.
    Now to climate services. The increasing attention that this 
concept is getting is rooted in the recognition that 
coordinated climate information and related services are needed 
to assist decisionmaking all across the public and private 
sectors concerning how to deal with climate variability and 
change. And just as the Nation's climate research efforts 
require and benefit from interagency and academic partnerships, 
so, too, will the development and communication of climate 
change information to users. No single agency is capable of 
providing all of the information and services needed to inform 
decisionmaking. To be successful, the delivery of climate 
services will require sustained Federal agency partnerships and 
collaborations, engaging climate service providers and end-
users alike.
    While much work has already been done to evaluate the need 
for climate services and a national climate service, the 
Administration believes that additional assessment and analysis 
of existing climate service capabilities and user needs for 
climate services is necessary. A national climate service--and, 
more broadly, our Nation's approach to delivering climate 
services--will require that such analysis and assessment is 
ongoing, science-based, user-responsive, and relevant to all 
levels of interest--that is, local, regional, national and 
international. The Administration recognizes the need to move 
forward with the climate services concept.
    To this end, OSTP plans to convene an NSTC task force, with 
representation from the full range of relevant agencies--NOAA, 
NASA, NIST, USGS, EPA, the Department's of Commerce, Interior, 
Agriculture, and Energy, and more--to be charged with examining 
national assets, existing data and information gaps, and costs 
related to the development of a cohesive framework for 
delivering accurate climate-related information to the public. 
This process is intended to lead to a detailed, functional, and 
organizational approach for delivering climate services to the 
Nation.
    In conclusion, Mr. Chairman, let me emphasize that I regard 
it as one of the primary challenges to OSTP to provide the 
oversight and coordination of this country's global-change 
research, monitoring, and information services that will be 
needed to ensure that our decisionmakers, our businesses, our 
farmers, our fishermen, and all of our citizens have the 
information they need to understand climate change, the ways we 
can mitigate it, and the ways we can adapt to the degree of 
change we can't avoid. Working in partnership with the OMB, 
other White House offices, executive-branch departments and 
agencies, and the Congress, we aim to pull together the 
expertise, across the government, to construct the 
relationships and interactions among these entities that will 
result in an integrated effort that is both greater than the 
sum of its parts and adequate to the country's needs.
    I look forward to working with the Committee in this 
effort, and I'll be pleased to try to answer any questions you 
may have.
    [The prepared statement of Dr. Holdren follows:]

     Prepared Statement of Hon. John P. Holdren, Ph.D., Director, 
   Office of Science and Technology Policy, Executive Office of the 
                               President

    Chairman Rockefeller, Ranking Member Hutchison, and Members of the 
Committee, I thank you for the opportunity to testify at this important 
hearing. Your Committee has a long history of leadership in addressing 
the need to improve our scientific understanding of climate change, 
which is so critical in shaping the kinds of policy decisions with 
which Congress is now grappling. I will focus my testimony here on the 
science of global climate change and what it is telling us about the 
challenges we face as a global community and as a nation, and on the 
role that the Office of Science and Technology Policy (OSTP) plays in 
coordinating climate change science and technology programs across the 
relevant Federal agencies for the benefit of the Nation.
Science and the Climate Challenge
    Investments in climate science over the past several decades have 
contributed to greatly increasing understanding of global climate 
change, including its attribution mainly to human influences.
    We now know that climate is changing all across the globe. The air 
and the oceans are warming, mountain glaciers are disappearing, sea ice 
is shrinking, permafrost is thawing, the great land ice sheets on 
Greenland and Antarctica are showing signs of instability, and sea 
level is rising. And the consequences for human well-being are already 
being felt: more heat waves, floods, droughts, and wildfires; tropical 
diseases reaching into the temperate zones; vast areas of forest 
destroyed by pest outbreaks linked to warming; alterations in patterns 
of rainfall on which agriculture depends; and coastal property 
increasingly at risk from the surging seas. All of these kinds of 
impacts are being experienced here in the United States as well as 
elsewhere, as extensively documented in a report of the U.S. Global 
Change Research program on Global Climate Change Impacts in the United 
States that was released with the endorsement of OSTP and NOAA last 
month.
    We know the primary cause of these perils beyond any reasonable 
doubt. It is the emission of carbon dioxide (CO<INF>2</INF>) and other 
heat-trapping pollutants from our factories, our vehicles, and our 
power plants, and from use of our land in ways that move carbon from 
soils and vegetation into the atmosphere in the form of CO<INF>2</INF>. 
We also know that failure to curb these emissions will bring far bigger 
impacts from global climate change in the future than those experienced 
so far. Devastating increases in the power of the strongest hurricanes, 
sharp drops in the productivity of farms and ocean fisheries, a 
dramatic acceleration of species extinctions, and inundation of low-
lying areas by rising sea level are among the possible outcomes.
    And we know what we can and must do to avoid the worst of the 
possible outcomes of climate change. We can transform our technologies 
for supplying and using energy from polluting and wasteful to clean and 
efficient, using new incentives to accelerate the process and new 
agreements and forms of cooperation to bring the rest of the world 
along. We can halt and reverse deforestation, and we can modify farming 
practices in ways that increase rather than decrease the amounts of 
carbon stored in agricultural soils. Indeed, with care in choice of 
locations and methods, we can make our farms and our forests 
sustainable sources not only of food and fiber but of clean, renewable 
biofuels to help with the energy side of the solution.
    Extensive use of technologies that increase energy end-use 
efficiency and that supply energy with greatly reduced carbon dioxide 
emissions will be needed, along with improved management of forests and 
agricultural soils, to achieve President Obama's stated goal of an 83 
percent reduction in U.S. greenhouse gas emissions below 2005 levels by 
2050--a goal intended, when coupled with similarly ambitious 
performance by other major emitting countries, to avoid the worst 
effects of climate change. Improving the technologies of energy end-use 
and supply, as well as relevant practices in agriculture and forestry, 
will play a major role in getting this done. To this end, the Federal 
Government is increasing funding for research and development across a 
broad portfolio of greenhouse gas mitigation options, including high-
performance buildings; advanced manufacturing; advanced vehicles; clean 
biofuels; wind, solar, geothermal, and nuclear power; carbon capture 
and sequestration; advanced energy storage; a more intelligent electric 
grid; techniques for reducing emissions and/or increasing uptake of 
CO<INF>2</INF> in agriculture and forestry; and more.
    The government will also need to implement incentives, as outlined 
in the Recovery Act and the FY 2010 Budget, to encourage firms and 
individuals to choose climate-friendly technologies, to contribute 
funding for early stage and high-risk research and development where 
the private sector on its own would do less than society needs, and to 
help execute ongoing and planned demonstration projects (such as for 
carbon capture and sequestration) where the scale and risk of the 
needed efforts would inhibit solely private approaches. The creation of 
the needed set of signals and supports is of course a primary aim of 
the comprehensive energy-climate legislation that has been passed by 
the House and is now under consideration in the Senate.
    Unfortunately, it is simply not practical to reduce heat-trapping 
emissions rapidly enough to halt overnight the build-up of the 
offending substances in the atmosphere, both because of the inertia in 
our energy infrastructure and in agricultural and forestry practices 
and because of the long residence times in the atmosphere of many of 
the greenhouse gases. Even if the atmospheric concentrations of all of 
the relevant substances could be stabilized instantaneously, the 
average surface temperature of the Earth would continue to slowly climb 
for decades, with accompanying changes in associated climatic phenomena 
such as rainfall patterns and temperature extremes, because of long lag 
time needed for the oceans to reach equilibrium with these atmospheric 
conditions.
    This circumstance underlines the need to invest, in parallel with 
efforts to reduce emissions and increase uptake of the main heat-
trapping gases and particles, in adaptation to the changes in climate 
that can no longer be avoided--e.g., breeding heat- and drought-
resistant crop strains, bolstering defenses against tropical diseases, 
improving the efficiency of water use, managing ecosystems to improve 
their resilience, and management of coastal zones with sea-level rise 
in mind. As noted by the USGCRP Global Climate Change Impacts report, 
informed choices about adaptation will need to be made at many scales 
of human activity, from an individual farmer switching to growing a 
different crop variety better suited to warmer or drier conditions, to 
a company relocating key business centers away from coastal areas 
vulnerable to sea-level rise and hurricanes, to a community altering 
its zoning and building codes to place fewer structures in harm's way 
and making buildings less vulnerable to damage from floods, fires, and 
other extreme events.
    When we do all that we ought to do in the way of both mitigation 
and adaptation, we will benefit not only by avoiding the worst damages 
from climate change, but also by reducing our overdependence on 
petroleum, continuing to improve air quality in our cities, preserving 
our forests as havens for biodiversity and sources of sustainable 
livelihoods, reducing our vulnerability to the extreme weather events 
that occur from time to time even when climate is not changing overall, 
and generating new businesses, new jobs, and new growth in the course 
of getting it all done.

Accelerating Progress Through Interagency Coordination
    The latest and best scientific information forms the bedrock on 
which effective policy to combat and cope with climate change must be 
built. To assist the government and society as a whole with 
understanding, mitigating, and adapting to climate change, the agencies 
of the Federal Government deploy a wide range of powerful science and 
technology resources. Each agency has different sets of key specialists 
and capabilities, different networks and relationships with the 
external research community, and separate program and budget 
authorities. The U.S. Global Change Research Program (USGCRP) brings 
together into a single interagency program the essential capacities for 
research and observations that are widely distributed across these 
government agencies. An essential component of success in delivering 
the information necessary for decisionmaking is coordination of the 
programmatic and budgetary decisions of the 13 agencies that make up 
the USGCRP.
    Growing out of interagency activities and planning beginning in 
about 1988, with relevant heritage going back even further, creation of 
the USGCRP energized cooperative interagency activities, with each 
agency bringing its strength to the collaborative effort. In 1990, the 
USGCRP received Congressional support under the Global Change Research 
Act (GCRA). The Act called for the development of a research program 
``. . . to understand, assess, predict, and respond to human-induced 
and natural processes of global change,'' and it guided federally-
supported global change research for the next decade. In 2001, 
President Bush established the Climate Change Research Initiative 
(CCRI) to investigate uncertainties and set research priorities in 
climate-change science, aiming to fill gaps in understanding within a 
few years. In the following year, it was announced that the USGCRP and 
CCRI together would become the Climate Change Science Program (CCSP). 
The USGCRP label remained attached to many of the program's activities, 
however, and consistent with the language of the GCRA statute the whole 
effort is going forward in the Obama Administration as the USGCRP, with 
CCSP as a component.
    The USGCRP is managed by a director from one of the participating 
agencies (currently from NASA) with the help of a program office (the 
USGCRP Integration and Coordination Office) and interagency working 
groups that plan future research and crosscutting activities, such as 
communications, decision support, and information and data concerns. 
OSTP and OMB work closely with the Interagency Integration and 
Coordination Office and the working groups to establish research 
priorities and funding plans to assure the program is aligned with the 
Administration's priorities and reflects agency planning.
    The 2010 Budget provides $2.0 billion for USGCRP/CCSP programs, an 
increase of $46 million or 2.3 percent over the 2009 level (excluding 
Recovery Act funds). USGCRP programs also received $461 million in 
Recovery Act funding based on preliminary agency allocations, including 
$237 million for NASA climate activities. Recovery Act funding also 
includes $170 million for NOAA climate modeling activities. The 2010 
Budget supports research activities including the development of an 
integrated Earth system analysis capability; a focus toward creating a 
high-quality record of the state of the atmosphere and ocean since 
1979; development of an end-to-end hydrologic projection and 
application capability; enhanced carbon cycle research on high latitude 
systems; quantification of climate forcing and feedbacks by aerosols, 
non-carbon dioxide greenhouse gases, water vapor, and clouds; 
assessment of abrupt change in a warming climate; examination of the 
feasibility of development of an abrupt change early warning system; 
understanding climate change impacts on ecosystem functions; and 
refining ecological forecasting.
    The Climate Change Technology Program (CCTP) is the technology 
counterpart to USGCRP. Its aim is to accelerate the development of new 
and advanced technologies to address climate change, focusing on 
energy-efficiency enhancements and technologies that can reduce, avoid, 
or capture and store greenhouse gas emissions. The CCTP was established 
administratively in 2002 and authorized by the Energy Policy Act of 
2005, and it began supporting and coordinating programs in 2007. The 
Department of Energy serves as the lead agency for the effort. Twelve 
agencies participate in the interagency coordination efforts of CCTP, 
eight of which also fund activities included in the CCTP portfolio.
    The 2010 Budget provides $5.3 billion for CCTP programs, an 
increase of $52 million over the 2009 level, excluding Recovery Act 
funds described below. The Budget funds a wide range of activities 
important to making progress toward climate-change goals. The Budget 
funds a wide range of activities that support progress toward climate 
change goals including programs that focus on energy efficiency 
improvements, low-carbon fuels and power, enabling technologies, such 
as energy storage and improving the electric power grid, power 
distribution and controls, and efforts to promote reductions emissions 
of non-CO<INF>2</INF> greenhouse gases.
    CCTP programs received over $25 billion in Recovery Act funding 
allocations, with most of it supporting DOE programs, including $16.8 
billion for energy efficiency and renewable energy, $4.2 billion for 
electricity delivery and energy reliability, $3.4 billion for 
efficiency and sequestration programs in fossil energy R&D, and $400 
million for the Advanced Research Projects Agency-E (ARPA-E), 
augmenting the support for advanced research in the DOE science 
programs. Other agencies also received Recovery Act funding for CCTP-
related technology development and deployment, including DOD ($139M), 
DOT ($100M), NASA ($39M), and NSF ($2M).
    Clearly, CCSP and CCTP need to coordinate their efforts in order to 
get the maximum benefit from each effort and from the combination. The 
necessary interaction has not always occurred, however. OSTP is now 
working with DOE and with OMB to help create the necessary coordination 
between the CCSP and the CCTP to help ensure maximum flow and synergy 
between science and technology programs.

Reforming the USGCRP to Address Emerging National Needs
    The USGCRP works most effectively to address national needs when 
the scientific capacities of individual agencies are leveraged with 
coordinated interagency planning and priority setting across the 
program. To encourage cooperation and budgetary discipline, the GCRA 
requires an integrated research plan in combination with an interagency 
budget cross-cut. With strong OSTP and OMB involvement in their 
preparation, these collective interagency budgets have enabled 
significant advances in research efforts, including international field 
programs that combined the satellite and other capabilities of NASA, 
satellite, aircraft, ship and network capabilities of the Department of 
Commerce's NOAA, the university research and field experiment 
capabilities of NSF, and long-term atmospheric and terrestrial 
ecosystem observation capabilities of DOE.
    These investments led to much more comprehensive and complete data 
sets for analysis by scientists in all nations, thus promoting, at 
lower cost to the United States, more complete and faster insight into 
such phenomena as the El Nino Southern Oscillation (ENSO), the 
photochemistry of global and polar ozone loss, oceanic uptake of 
carbon, and much more. Improvement of climate models and transfer of 
such models to the new generations of massively parallel computers was 
accelerated by combining the scientific and technical strengths of DOE, 
the Department of Commerce's NOAA, NSF, and NASA with the world leading 
high-performance computing capabilities developed by DOE. The sharing 
of data and model results allowed other agencies, such as the 
Department of the Interior, the Department of Agriculture, and the 
Smithsonian Institution to draw on the results to study changes in 
terrestrial ecosystems, hydrology, agriculture, human settlements, and 
the polar-regions. The capacity and leadership of the program 
significantly advanced scientific understanding in ways that continue 
to benefit society.
    Although the USGCRP supports a wide variety of research activities 
to gain more detailed predictive understanding of climate change, there 
remain significant gaps in going from an estimate of how much the 
climate may change to the effects these changes may have on ecosystem 
services, water resources, natural resource utilization, human health, 
and societal well-being. It is important for the USGCRP to make a 
strong commitment to providing the information that society is seeking 
in order to reduce vulnerabilities and improve resilience to 
variability and change. For example, a recent National Research Council 
report recommends restructuring the USGCRP around ``. . . the end-to-
end climate change problem, from understanding causes and processes to 
supporting actions needed to cope with the impending societal problems 
of climate change.'' \1\ This will require the USGCRP to support a 
balanced portfolio of fundamental and application-oriented research 
activities from expanded modeling efforts to studies of coupled human-
natural systems and institutional resilience.
---------------------------------------------------------------------------
    \1\ National Research Council, 2009. Restructuring Federal Climate 
Research to Meet the Challenges of Climate Change. National Academy 
Press, Washington, D.C.
---------------------------------------------------------------------------
    In addition, it would mean boosting adaptation research; bolstering 
capacity to monitor change and its impacts (including not only 
enhancing our monitoring networks on land and for the oceans but also 
strengthening our system of Earth-observation satellites); producing 
the sorts of integrated assessment of the pace, patterns, and regional 
impacts of climate change that will be needed by decisionmakers as 
input into their deliberations on the metrics and goals to be embraced 
for both mitigation and adaptation; and making climate data and 
information accessible to those who need it.
    Three areas of particular need for more comprehensive and 
coordinated treatment from USGCRP are adaptation research, integrated 
assessment, and climate services. I take up each briefly in turn.

Adaptation Research
    There currently exists limited knowledge about the ability of 
communities, regions, and sectors to adapt to a changing climate. To 
address this shortfall, research on climate change impacts and 
adaptation must include complex human dimensions, such as economics, 
management, governance, behavior, and equity. Interdisciplinary 
research on adaptation that takes into account the interconnectedness 
of the Earth system and the complex nature of the social, political, 
and economic environment in which adaptation decisions must be made 
would be central to this effort. Given the relationships between 
climate change and extreme events, the community of researchers, 
engineers and other experts who work on reducing risks from natural and 
human-caused disasters will have an important role to play in framing 
climate change adaptation strategies and in providing information to 
support decision-making during implementation. For example, assessments 
of emergency preparedness and response systems, insurance systems, and 
disaster-relief capabilities are an important component of a society's 
adaptive capacity.

Integrated Assessment
    Preparing for and adapting and responding to the impacts of climate 
change must start locally and regionally, as each region is distinct, 
and each type of impact is experienced in different ways in different 
places and for different sectors of the economy. Any national 
assessment activity must engage localities and sectors to aggregate 
information into a national picture of climate impacts, and should also 
use this engagement to gather information on the ``demand-side'' of the 
adaptation problem, where people live and work, to reorient research 
and observation investments. While there are certainly issues where 
national policy steps are warranted, there will be many challenges 
where individuals, public and private sector organizations, local 
communities, states, and regions will need to respond. USGCRP 
activities need to serve all of these scales and stakeholders, not 
dictating what policies to follow, but providing information and 
capabilities needed by those experiencing the impacts so that they can 
prepare for and adapt and respond to future conditions.

Climate Services
    Coordinated climate information and services are needed to assist 
decision-making across public and private sectors. Local planners will 
want information on likely changes in precipitation amount and flooding 
rains; farmers and farm cooperatives will want information on changes 
in season length and temperature, not just for their own farms, but for 
those of their local and distant competitors; coastal zone managers 
will want information on likely changes in sea level, storms, and 
estuarine temperatures; water resource managers will want information 
on likely changes in snowpack and runoff, and the chance of floods and 
drought; community health planners will want information on changes in 
location of freezing conditions and the frequency of extreme heat 
waves; industry will want information on changes in extremes that might 
affect their businesses and shipping; those preparing environmental 
impact statements will need information on how changes in a given 
location affect environmental outcomes; those doing economic analyses 
will want information across the region, and much more.
    Just as the Nation's climate research efforts require and benefit 
from interagency and academic partnerships, so too will the development 
and communication of climate change information to users. No single 
agency is capable of providing all of the information and services 
needed to inform decisionmaking. To be successful, the delivery of 
climate services will require sustained Federal agency partnerships and 
collaboration with climate service providers and end users.
    While much work has been done to evaluate the need for climate 
services and a National Climate Service, the Administration believes 
that additional assessment and analysis of existing climate-service 
capabilities and user needs for climate services is necessary. A 
National Climate Service and, more broadly, our Nation's approach to 
delivering climate services will require that such analysis and 
assessment is ongoing, science-based, user-responsive, and relevant to 
all levels of interest, e.g., local, regional, national and 
international. Such a framework must also be able to adapt to new 
developments in the scientific understanding of climate change and 
resultant impacts to serve the needs of decisionmakers and the public.
    The Administration recognizes that the Nation needs reliable and 
accurate climate information. To promptly address this issue, the OSTP 
is working to convene a task force with representation from a diverse 
group of key agencies whose charge will be to examine national assets, 
existing data and information gaps, and costs related to the 
development of a cohesive framework for delivering accurate climate-
related information to the public. This process is intended to result 
in a more detailed functional and organizational approach for 
delivering climate services to the Nation, in concert with the 
Administration's views presented here for a broad authorizing 
framework.

Earth Observations and Continuity of Climate Data Records
    Physical, chemical, and biological information about our planet is 
vital to our ability to plan, predict, respond, and to protect our 
citizens and infrastructure. Today, millions of individual observations 
are collected every day, allowing us to examine, monitor, and try to 
model atmospheric composition, seismic activity, ecosystem health, 
weather patterns, and hundreds of other characteristics of our planet. 
Developing the ability to assess and protect environmental services of 
all kinds--verifying ``bottom-up'' information used by decisionmakers 
with independent ``top-down'' observation systems--will require 
continuing efforts to improve our understanding of and ability to 
measure stocks and flows of water, carbon, and nitrogen at global, 
regional, and local scales.
    Observations are taken from space, and within the Earth system (in 
situ), from the air and on and below the land and the oceans. Obtaining 
accurate climate data requires calibrated measurement systems that are 
traceable to national and international standards. Once the integrity 
of the data is validated, the data can then be interpreted, 
interpolated, and integrated. The myriad of observations taken today 
vary widely in purpose and scope and are appropriately distributed 
among hundreds of programs under the purview of Federal agencies and 
other institutions and individuals. To a large degree, these 
observations have been only loosely coupled, coordinated, traceable and 
integrated. The critical leap forward can only be achieved with a 
synergy between remotely sensed and in situ observations supported by 
robust data systems.
    Increasingly this promise is being realized, and seemingly 
disparate observations are combined in new ways to produce benefits 
across multiple societal areas. This recognition has led to the concept 
of an integrated Earth-observing system as articulated by the Group on 
Earth Observations (GEO). In order to achieve the synergies and 
benefits of an integrated system of observations, the United States 
Group on Earth Observations (USGEO) was formed in 2005 as a standing 
subcommittee of the National Science and Technology Council (NSTC). 
That same year, the Global Earth Observation System of Systems (GEOSS), 
was formed to coordinate observations at the international level. By 
2009, 79 countries, the European Commission and over 50 international 
organizations were engaged in this effort. The U.S. contribution to 
GEOSS is the Integrated Earth Observation System (IEOS). GEOSS and IEOS 
will facilitate the sharing and applied usage of global, regional, and 
local data from satellites, ocean buoys, weather stations, and other 
surface and airborne Earth-observing instruments. The end result will 
be access to an unprecedented amount of environmental information, 
integrated into new data products benefiting societies and economies 
worldwide.
    The state of the U.S. space-based observational system in 2009 is 
largely unchanged from that of 2005, but the outlook has significantly 
worsened, according to the National Research Council (NRC) Decadal 
Survey Report. Continuity of the weather system is threatened by 
reductions and delays in the National Polar-orbiting Operational 
Environmental Satellite System (NPOESS) and plans for climate 
measurements on NPOESS have been scaled back. The likelihood of a gap 
in land imagery impacting multiple societal needs (e.g., agriculture, 
biodiversity, climate, ecosystems, water, etc.) is now almost a 
certainty. In addition, no plans have been developed to continue some 
of the valuable observations demonstrated by the NASA Earth Observing 
System (EOS) program that benefit the disaster preparedness, human 
health, climate, and water areas.
    OSTP will play an important role in coordinating interagency 
satellite observation policy. We must increase government oversight and 
improve the interagency partnerships central to the management of 
civilian satellite programs, which among other things, are critical to 
the Nation's climate and weather forecasting. We need to proactively 
manage our programs to avert future cost and schedule overruns. 
Agencies must work together to manage the contractors building these 
satellites and demand cost and schedule accountability. The management 
of the NPOESS program and ensuring continuity of weather and climate 
data is a high priority for the Administration's leadership team. I 
have directed the formation of a Task Force within the Executive Office 
of the President (which will include representatives from the Office of 
Management and Budget as well as the National Security Council) that 
will meet regularly with NOAA, NASA, and the Department of Defense 
(DOD), the three agencies partnering on the program, to monitor 
progress and results in addressing key issues facing the success of 
this program.
    In an overall sense, deployments of new and replacement satellites 
are not keeping pace with the termination of older systems, even though 
many existing satellites are operating well past their nominal 
lifetimes. A number of satellites built as research missions are now 
seen to have ongoing societal benefit, but there are currently no plans 
for continuity of many of these. Over the next 8 years, 50 percent of 
the world's current and planned suite of Earth-observing satellites 
will be past their useful life. Given the long development times 
associated with fielding new systems, particularly satellite systems, 
and absent a dramatically increased commitment to sensor system 
development, this declining census of instruments and missions could 
lead to a loss of observing capability in the next decade. This reality 
reinforces the need to address the recommendations in the NRC's Decadal 
Survey.
    In addition to global observations made from space, in situ 
measurements provide critical data at fine spatial and temporal scales 
and of parameters and in places not achievable from space. Our 
observational infrastructure for in-situ measurements is aging and 
investment in monitoring programs has declined despite growing demand. 
And, there still remains the grand challenge and promise of using 
geospatial information to link the broad coverage and context of our 
top-down remote-sensing view with the comprehensive and detailed 
measurements made in situ in order to best characterize and understand 
environmental resources.
    Development of an integrated climate-observing system stands as a 
large and urgent challenge. One part of the challenge is that the 
required observing system must deliver multidecade data records with 
the accuracy and precision needed to distinguish long-term climate 
changes from natural variability and other environmental influences. To 
help ensure compatibility and consistency between various international 
monitoring organizations and laboratories, the National Institute of 
Standards and Technology (NIST), the Nation's national measurement 
institute, can provide traceable measurement techniques and standards 
based on the International System of Units. In addition, NASA EOS 
demonstrated the ability to create long-term, high-precision climate 
data records. The experience of this program has revealed the 
difficulties in ``transitioning'' long-term, research-type measurements 
to an operational system. We have work to do in overcoming the 
limitations of the current ``research to operations'' paradigm with 
respect to climate observations, which require a long-term research 
effort. The institutional structures and capacity, and specific agency 
roles and responsibilities must be developed to deliver an integrated 
climate-observing system.
    The effort to evaluate and assess options for the NPOESS program is 
just the first step toward building a solid foundation of continued 
Earth observations for the future, which would take into account both 
the NRC's Decadal Survey as well as the ability to coordinate with 
GEOSS at an international level.

Conclusion
    The climate is changing with increasing potential for disrupting 
human well-being. We know the causes, and we know what we have to do to 
avoid the worst of the possible effects. Science, technology, and 
innovation are all going to be crucial in mastering the climate-change 
challenge. As Director of OSTP, I regard one of the primary challenges 
and one of the primary functions of OSTP to be providing the leadership 
and needed coordination of global change research to ensure that our 
decisionmakers, our businesses, our farmers, our health care workers, 
and all our citizens have the information they need to take actions to 
improve human well-being and environmental management as the climate 
changes. Working in partnership with the Office of Management and 
Budget and the Congress, we aim to pull together the expertise across 
the government, drawing from each agency's distinctive capacity, to 
construct the relationships and interactions among the agencies that 
will result in a program for global change research that is both 
greater than the sum of its parts and adequate to the country's needs.
    I look forward to working with the Committee in this effort. I will 
be pleased to try to answer any questions the Committee may have.

    The Chairman. Thank you very much, Dr. Holdren.
    We'll do questions in order of appearance, which, happily, 
allows me to start.
    [Laughter.]
    The Chairman. For Secretary Locke, are you serious, 103 
degrees?
    Secretary Locke. 103 in Seattle yesterday. We moved the 
whole family out yesterday, caught the plane at 1 o'clock in 
the afternoon, but, before that, visited with my mom and dad, 
who are elderly, making sure that they were drinking a lot of 
liquids, and trying to cool down the house as much as possible. 
But, the day before, I think we reached about 98, 99 degrees in 
Seattle, and the rest of the week, all through Saturday and 
Sunday, it should be close to 100 degrees.
    The Chairman. Well, you'll feel very comfortable in 
Washington.
    [Laughter.]
    Secretary Locke. We don't have the humidity in Seattle----
    The Chairman. That is true.
    Secretary Locke.--or the Northwest----
    The Chairman. That is true.
    Secretary Locke.--like you have here in D.C.
    The Chairman. Now, this, a little bit, steals from what Dr. 
Holdren was saying, but we've been working very hard to create 
a National Climate Service in this Committee, and I would like 
your, sort of, views on a couple of aspects of this.
    The--you know, the American Clean Energy and Security Act 
includes a provision authorizing a National Climate Service. 
So, I'd like to get a sense of, What do you think the core 
functions ought to be? Second, if you've looked at that law, do 
they--does that, sort of, meet your basic criteria, or does it 
not? But, really, most importantly, from my point of view--and 
I've seen this so much--I spend so much time on healthcare; I 
say that with joy and happiness, of course--but, it is so easy 
for basic truths to be lost to implementation by national 
public policy, because people get caught up in antigovernment 
fever or--you know, or they're trying to tell us this or that.
    So, in both of your answering questions if--much as you 
can, weave in, How do we make what we're talking about here 
somehow friendly to conservatives?
    I have a question, later on, should we have a National 
Climate Service in every state? Now, that's a stupid question, 
I think. But, it gets at that point. Things that come out of 
Washington, people are slower to react to. Things that come out 
of--very confidently out of Washington, people are slower to 
react to. People don't like change. People from my part of the 
country like--don't like change, really, hardly at all. And so, 
this whole matter--it's like getting the Department of Defense 
and everybody to do work together, as you were talking about, 
Dr. Holdren--this has to also somehow be felt by the American 
people, I think, for them to support climate change, in terms 
of public policy.
    Secretary Locke. Well, I think that clearly a National 
Climate Service is badly needed. And the Department of 
Commerce--NOAA, in particular--we think has been exercising a 
leadership role in these activities for several decades. We 
stand ready to work with other Federal agencies on a 
coordinated approach. And that is the most important thing. We 
have to have a partnership with the Federal agencies as we 
provide a National Climate Service.
    But, I think, in order to be credible--in order to--and you 
asked the question, ``What are the assets or the attributes 
most needed of a National Climate Service?--it has to be 
credible, it has to be authoritative. There needs to be a 
single point of accountability that everyone in the country--
policymakers, local governments, businesses, individuals--can 
all go to. And this agency or service must provide climate 
modeling in terms of forecasts and projections. People need to 
understand what's coming down the road. And it needs to provide 
regional and national assessments of climate change so that 
people in different parts of the region understand--can get, as 
much as possible, tailored scientific information as it 
pertains to them and their livelihoods and their future. And 
the climate service has to work closely with stakeholders to 
really understand and analyze evolving needs.
    And finally, I think that this climate service needs to 
also work on helping the public understand climate change is 
happening, and what it means--so that we're working with all 
different levels of citizens, the public and private sector, 
and individuals. Credibility is at stake; we need authoritative 
information based on scientific research.
    The Chairman. Just taking that point--and my time is about 
out--I hope that we really can talk about how we make the 
public feel participatory. I really believe that. If the 
healthcare bill fails to pass, it will be because people 
grabbed onto, sort of, ``The government trying to tell me what 
doctor I can go to''--never leaves that point of view. They're 
good people, they're wonderful people, they're wonderful 
Americans, but they will not yield to what they know, as 
opposed to what might be different.
    And so, the question of bringing it to the level of the 
people. And I'd say this to my two colleagues on the dais, 
here, to--I really--I just think it's so important that people 
see climate change, not only as moderately threatening, because 
it's going to change the way we all live and the way everybody 
does everything, pretty much, and yet, somehow they understand 
that it's not being dumped on them, but it's being worked 
through them--they are stakeholders--so that they are more open 
to this change, which is going to be very dramatic over a 
period of years.
    My time is out.
    And I call upon Senator Begich.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much. Thank you, Mr. 
Chairman, for doing this Committee hearing on an issue that, in 
Alaska--you know, we face this everyday. We've had some 
conversations already about this. And so, again, thank you for 
having the Commerce Committee participate in this.
    I want to kind of hone in a little bit on--because we have 
one bill that's kind of moving from the House side over the 
Waxman-Markey bill. And there are elements--I mean, there's one 
element, which I'm not--maybe I'll be too parochial here, but 
let me just say that I know there are, I think, six climate 
service centers, or climate centers, around the country--none 
in Alaska, which is the place that's being most affected by 
climate change, which--somewhat amazing that didn't happen on 
the House bill, but we'll deal with that, hopefully, here. But, 
can you--first, both of you--I think you both said, through 
your testimony, that you agree with the idea of a national 
climate service, a single point of entry regarding climate 
change. Do you both agree with that?
    Dr. Holdren. Yup.
    Secretary Locke. Yes.
    Senator Begich. Is that--I just wanted to make sure I 
understood that in the conversation.
    And second, with--understanding that, do you think--and I 
don't know how much review you've already done on the Waxman-
Markey bill--are there suggestions to improve that single point 
of entry, from your perspective, that you're prepared today, or 
in the near future, to give us some recommendations, from both 
of you? Maybe Secretary Locke first, and then Mr. Holdren.
    Secretary Locke. Well, first of all, I want to say that 
everything that we're trying to do at the Department of 
Commerce is to streamline our operations and make all of our 
information and services more accessible to the people we 
serve, whether it's businesses or individuals, with respect to 
weather. In terms of our businesses, we're revamping our 
programs to offer one-stop-shop business assistance centers, 
where all businesses have one focal point, one place that they 
can go to in every community, instead of going to five or six 
different offices. We're doing the same thing with a lot of our 
websites, one single point of contact. That is now happening, 
with respect to climate services, within NOAA, where we're 
putting all of the information on all the different programs 
that we have, one location on its website, one place that 
people can go to, in terms of understanding the effects of 
climate change, the need to adapt, as well as all the 
information that we provide.
    The House bill does call for six climate offices in the 
country. We think that the more offices that there are around 
the country, then it gets to the Chairman's notion of really 
bringing the message home in an understandable fashion, and it 
allows policymakers, whether local governments, water resource 
managers, to state governments, to businesses, to have a place 
where they can get more information about the forecasted impact 
of climate change on their community.
    Now, most of the modeling that's being done is on a region-
by-region basis. We're not down to a city or a state basis yet. 
And a lot of the modeling and the forecasting is being done 
over a decade period, for the next 10, 20 years.
    We do have, in fact, weather services and climate services 
available in every state, and would welcome the opportunity to 
work with the members of the Committee, depending on the level 
of funding, in terms of the number of climate offices that we 
could actually have throughout the country, and--whether it's 
one for every state--we also need to find out if the states are 
even interested in having a climate service office in that 
particular state.
    Senator Begich. I guess, let me--again, I want to see if 
there is opportunity--and, again, maybe not today--but, as you 
look at the Waxman-Markey bill, what recommendations you might 
have to improve on those elements. But, I guess my point is--
and, again, I don't want to be so parochial--but, there's no 
other state--no other state in this country that would be 
considered ground zero when it comes to climate change. And 
yet----
    Secretary Locke. Well, clearly the----
    Senator Begich. And yet, when you look at the bill, it 
doesn't even reference, in a sense, of--you know, we have the 
natural lab, from the Arctic, the fisheries, acidification, 
permafrost melting--you don't have to do it now, because we 
have such limited time, but I think this is an important piece 
as we try to understand climate change. We have a natural lab, 
in Alaska, and we should take advantage of it to understand it 
from a variety of areas that will affect the country for many 
generations to come. I'm not necessarily looking for just the 
service center. If we're going to do climate change, it should 
be a single point of entry, so we can have a better 
understanding. Because every committee meeting I have here that 
climate change comes up, I always ask for the org chart; 
nothing exists, because it's too complex, in the sense of who 
handles what, and then, at the end of the day, who pulls the 
trigger to make the decisions. Because when you have multiple 
agencies, everyone's going to have jurisdiction.
    Dr. Holdren. Well, if I may, Senator, let me comment on 
both aspects of your question.
    First of all, I agree with you that Alaska is, 
unfortunately, a natural laboratory for what's happening in 
climate change. It's happening faster there, bigger effects are 
being felt sooner. We need to understand it. And clearly, 
Alaska's a very important place, both as a producer of relevant 
data and as a consumer of information that will enable people 
to better adapt to the degree of climate change that we can't 
avoid.
    The Administration is not ready, at this moment, to make a 
specific recommendation as to exactly how the whole climate 
services area should be organized. We are studying it. A number 
of things are clear about the issue. Those things that are 
clear include that NOAA is going to have a very big role--
there's a large concentration of relevant capabilities in 
NOAA--but also clear is that a variety of other agencies and 
departments have big stakes, both on the supply side and the 
demand side--that is, as providers of information and as users 
of information--Department of the Interior, Department of 
Agriculture, EPA, DOE--all are examples of agencies that are 
going to have to play significant roles in this. It is going to 
be a big challenge to get the coordination right and to figure 
out exactly how this is to be structured, and we're still 
working on it. But I assure you that we are going to come up 
with an answer that will make it work. It's too important to 
allow it to fail.
    Senator Begich. Thank you.
    My time is up. And thank you both very much. Appreciate it. 
And thanks for your written testimony, too.
    The Chairman. Before I call on Senator Cantwell, I have my 
usual pleasure of announcing that the Senate is accommodating 
themselves to us. We're going to have a whole series of stacked 
votes, starting at 3:40. And so, let's make sure that we get 
the maximum we can from our two witnesses.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. Thank you for 
holding this important hearing.
    And, Secretary Locke and Dr. Holdren, even if we do take 
major steps to curb greenhouse gases, we are still going to 
experience some level of warming and impact, and our Nation is 
going to have to adapt to that. And I guess I'm asking, Do you 
think that Congress needs a comprehensive action plan on 
adaptation, and not just mitigation?
    Secretary Locke. Well, I clearly think that the country, 
and all sectors within the country, will need to focus on 
adaptation, a response to the changes in climate. As much as we 
can try to avoid or mitigate the intended changes, we will--
there undoubtedly will be changes in our climate that will have 
devastating impacts, and very significant impacts, on all 
sectors, from recreation to industry to business, agriculture, 
to the responsibilities of municipal governments, and State and 
Federal Government, as well. And that's why I think that we 
need to have that information disseminated. The forecasting 
must be as accurate as possible, and scientifically based, so 
that people can make appropriate decisions. The Department of 
Commerce and NOAA stand ready to work with the White House in 
partnership with the other Federal agencies, in the creation 
and organization of a national climate service.
    But, we feel that NOAA has been exercising leadership in 
providing much of the information, sharing that information, 
collecting the information for many decades, and that we 
intend, and are desiring, to stay in that strong leadership 
role with the other Federal agencies.
    Senator Cantwell. Well, we passed an adaptation bill out of 
this Committee last year, and I hope that we can do so again 
this year, because the impacts on these communities--they have 
no ability to plan for some of these things themselves, whether 
we're talking about something as basic as our hydro system and 
what happens to that, or flooding areas, or public health 
problems, just--it's beyond what individual communities can do.
    Dr. Holdren, should we be planning for abrupt climate 
change? And what are the potential consequences of that? And 
how do we get the additional research that we need in that 
area?
    Dr. Holdren. Well, Senator, the first thing I would say is, 
we're already finding climate change is becoming more abrupt 
than we expected, even a few years ago. Many different aspects 
of climate change are happening more rapidly than the 
Intergovernmental Panel on Climate Change predicted in its 
recent reports. It could become even more abrupt. Nobody knows 
for sure. Our understanding of all the details is not adequate 
to say exactly which potential tipping point might be crossed 
when, which would cause some of the climatic changes that we're 
experiencing to accelerate drastically, but we should be ready 
for it.
    I would say that this is simply another dimension of why 
adaptation is, as the first part of your remark suggested, so 
important as part of our national strategy for addressing 
climate change. It's not enough just to focus on mitigation. 
You're absolutely right that, no matter what we do in 
mitigation, we cannot stop climate change overnight. There's 
going to be some more. We have, with mitigation, the 
possibility of avoiding the worst outcomes, but we have to be 
ready, on the adaptation side, for whatever comes. And we don't 
really know enough about it yet. We need more research on 
adaptation. There are many things that are obvious that we can 
do in the way of adaptation, including work on developing heat- 
and drought-resistant crops, including doing coastal planning 
with sea-level rise in mind, including strengthening our 
defenses against tropical diseases--a wide variety of things we 
already know how to do. But, there are many more opportunities 
that we will discover for adaptation as we study this domain 
more carefully.
    And in my written testimony, I talked about the ways that 
everybody who has looked at this question carefully, concludes 
that we should be expanding the research agenda of the U.S. 
Global Change Research Program to include the adaptation 
elements, including the sociopolitical parts. We have a lot 
still to understand about the economic and institutional 
dimensions of adaptation to climate change. And that is an area 
that is starting to be studied, but we need to do a lot more, 
and we need to integrate it, in the USGCRP, with the studies 
that have historically gone on there on the dynamics of climate 
change itself.
    Secretary Locke. If I could just point out, Senator, I 
think the demands for climate information and assistance to 
adapt to climate change are going to increase over time as 
people--more and more people see the effects of climate change 
and understand it, appreciate it, and get worried about it.
    Senator Begich raised the issues of Alaska. I mean it is 
ground zero. It will require assistance, help, in terms of 
relocation, infrastructure investments, emergency response 
efforts to flooding and storms that will be coming about, and 
changes in the weather pattern.
    Just in terms of the Cascade Mountains or the Sierra 
Nevadas, a ski-lift operator of a ski lodge, do they continue 
to invest or put more money into building chairlifts because, 
depending on the elevation, 20 years from now, will what now 
falls as snow actually be only rain?
    And so, so many people are going to be depending on this 
information in making investment decisions on where to build, 
how far away from rivers and streams--depending on the weather 
patterns, will some of these rivers and streams be more prone 
to flooding? Will the floodplains change? That will drive a 
whole host of decisions among public and private 
decisionmakers. And the need for climate information, the need 
for climate services, is even more pronounced.
    Senator Cantwell. Well, I thank our witnesses.
    Mr. Chairman, you urged the Subcommittee on Oceans and 
Atmosphere to have a hearing, earlier in the year on this 
related topic, in which a lot of the witnesses pointed to the 
fact that 60 percent of our country's--well, our country's 
coastal regions--basically, if you took them as economy, a 
separate economy, they're the third-largest economy in the 
world. And yet, these are the very areas--our coastal regions, 
that are the backbone of our U.S. economy--will be the areas 
that will be impacted by climate change. And so, we will be, 
economically, very vulnerable without an adaptation plan.
    So, I thank the witnesses. And I thank the Chairman for 
holding this hearing.
    The Chairman. Thank you, Senator Cantwell.
    Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Well, on that issue, when can we expect to 
see some of those plans--for example, on sea-level rise--of the 
economic and the physical impacts?
    Mr. Secretary?
    Secretary Locke. Well, I'm not sure that we can actually 
document, immediately, the economic impacts on sea-level rise. 
We can make those forecasts, and the forecasting models are 
becoming a lot more precise every single day and every single 
year. We're able, now, perhaps, to estimate the climate change 
for the next--over a decade, instead of 50 years from now--but 
over the next decade. And that's why I think that we're going 
to need that cooperation and partnership with local 
governments, State governments, Federal agencies, as well as 
private sector, to, for instance, say, if the oceans rise by 6 
inches in the next so many years, or a foot in so many years, 
or even a meter, as so many scientists are predicting over the 
next 50 years, then we're going to be receiving all that 
information, and collecting that, from public and private 
sectors.
    Many people on the Marshall Islands are very concerned that 
the entire Marshall Islands will be underwater. It will be up 
to the people on the Marshall Islands to present that economic 
data on the total cost or impact of that level of rise of sea 
levels.
    But, clearly, first we need to have the data. We need to 
make sure that the public and private sector understand what 
the effects are.
    Senator Nelson. Let me get into that, because we're going 
to have these votes called. We need the data. Now, we've got a 
satellite, sitting on the ground, named Discover. The problem 
is, Who's going to pay for the launch cost? And what Discover 
will do, when it gets out there at the Lagrange point between 
the Earth and the Sun, is, it will specifically measure the 
heat going in and the heat coming out from the Earth so we know 
precisely how much heat is being trapped in the Earth's 
atmosphere.
    We have put, in the Defense authorization bill, language 
that requires the Air Force to study, by them taking a very 
necessary defense instrument and putting on that, that it is 
needed also at the Lagrange point, and let the Air Force pay 
the $150-million cost of launching it. So, it's those kind of 
things that we're trying to get out.
    Now, one of the things that's in your bailiwick, and in Dr. 
Holdren's bailiwick and Dr. Lubchenco's bailiwick, is that we 
haven't been doing too good with NPOESS. It's not working. 
What's the Administration's timeline for the decisionmaking?
    Secretary Locke. With respect to NPOESS, Dr. Holdren 
covered that a little bit in his testimony, but, as I indicated 
to the Committee at my confirmation hearing, and as I indicated 
to the House Committee, the NPOESS project, is of utmost 
concern to me. And, Dr. Holdren and I have been having a lot of 
conversations about it, and I'm really pleased that Dr. Holdren 
convened a meeting of all the principals, agencies involved in 
the NPOESS, and we're now developing an action plan and 
analysis of what is happening.
    The interagency working group that oversees it, on its own, 
has now concluded, on its own, which is great, including the 
Defense Department, that the NPOESS management is seriously 
flawed and must be changed. So, we are, as an administration, 
with all the players, including Dr. Holdren taking the lead, 
looking at major changes in NPOESS. It is fundamental to our 
weather capability and climate service capability.
    With respect to the satellite that's on the ground, ready 
to be launched, I'm very proud to say that the Department of 
Commerce, NIST--National Institute of Science and Technology--
worked with the stakeholders to improve the accuracy of the 
Total and Spectral Solar Irradiance Sensor or TSIS for NPOESS 
so that the uncertainty level is less than 1-100th of a 
percent, down from the previous .3-and-a-half-tenths percent.
    So, we understand how important these satellite programs 
are, the accuracy and the reliability of the instruments, and 
the sophistication of the instruments, and--but, we know that--
we're very proud of what we're doing on this particular 
satellite that's ready to be launched, but we also know that 
all the agencies need to aggressively change the management 
structure and the success of the NPOESS project.
    Dr. Holdren. Let me just add to that, if I may, that I did 
make a strong statement in my oral testimony, and I'll 
reinforce it here, that it is a high priority for me and the 
rest of the leadership in the Administration to get this NPOESS 
system fixed. We have new leadership in all of the relevant 
positions in the three agencies, and everybody now is committed 
to cooperate to a degree that has not characterized this three-
agency effort in the past, and indeed to the degree that will 
be needed to get it back on track. We are moving forward. We 
are forming a task force in the Executive Office of the 
President to work with the leadership in the agencies to make 
sure this gets done. It is too important to let it fail.
    As to the Discover satellite, I agree with you, it would be 
a wonderful thing to get that up there. The better our data, 
the better our ability to respond to climate change, to give 
people the information that they will need. And I certainly 
join you, Senator Nelson, in my enthusiasm for getting this 
done. We are going to figure it out.
    Senator Nelson. And NASA's going to have a role in the 
National Climate Service?
    Dr. Holdren. Absolutely. Again, I said that in my oral 
testimony, and I'll say it again, NASA, along with NOAA, NIST, 
USGS, Agriculture, Interior--the capabilities that are 
relevant, the needs for the information, are spread across a 
range of agencies. We're going to get them to coordinate and 
work together, for sure.
    Senator Nelson. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Nelson.
    I want to use what I think will probably have to be my last 
question. Go back to the thing that worries me the most, that 
we can be doing everything right, here in Washington, with 
respect to the right kind of research, with the right order of 
its priority, getting--I mean, you sound, Dr. Holdren, like 
you're already way ahead of Admiral Blair, in terms of 
eliminating stovepipes to, you know, major agency consideration 
and cooperation in climate change problems.
    Dr. Holdren. We're working on it.
    The Chairman. You've got DOD working with you, you're ahead 
of a lot of people. But, that's one aspect. It has to be 
accurate. That's a really hard set of work on the part of 
thousands of people. It has to be, then, put into form, which 
has the integrity of the U.S. Government behind it, which, for 
example, could be validated by the scientific community around 
the country. But, then there's a huge gap. And I would make 
that gap--and I'd, in a sense, sort of, separate myself, not in 
feeling, but just in location, from my three colleagues--two--
three colleagues who are here, all of who are from coastal 
areas. One of the facts of the Midwest and the Mid-Atlantic is 
that there is less receptivity to the concept of climate 
change--I mean, an individual Senator or Congressman might be 
either way out in front or way out behind--but, the people 
trust what they can see and feel and understand, and what is 
somehow given to them through validators who they can trust and 
understand.
    Now, to me, this is important, in terms of being able to do 
the right type of legislation, and in terms of changing 
people's attitudes about thing like caulking their homes. Nice 
little article in the Washington Post, I think, this morning 
about white roofs, and how it's already cooling down somebody's 
house, and he's really happy about it, and there he is, tapping 
in the nails on top of the house. I don't--there's not, 
probably, a great deal of that going on in the part of the 
country I'm talking about, because it's higher in elevation, 
certainly not by much, or it's not higher in elevation, but 
it's insulated inside of the oceans, and they don't have the 
same fear, generally speaking.
    I think it's human nature to avoid having to make difficult 
changes until you really believe that it's in your interest to 
do so. I mean, you could have conscription, like you do in 
the--in World War II, when we finally got it--I think, only by 
one vote, at that. You know, that's fine, that works there, but 
it doesn't work on this. You have to convince people that we 
need to make changes and it's in their interest, it's not 
government--you know, it's like--even I--I feel this, when I 
read a report by some international organization of scientists 
which say that everything is proceeding at twice the speed of 
deterioration, worse than they had come out with 2 years 
before. And they've got a long acronym name, and it just sort 
of goes right on through my head, because it's not close at 
hand. I can't talk about that to the people I represent, 
because they don't know what it is, and they're not moved by 
it. And you understand what I--already, what I'm saying. But, 
this whole question of--as we do our work, that we somehow 
bring the American people into it, in a way which is not 
preemptive or nasty or threatening, but which is clearly to 
their self-interest and which, therefore, to some extent, they 
might even come to welcome.
    Secretary Locke. Well, I think it begins with making sure 
that the agencies that are involved in a National Climate 
Service, whether NASA, NOAA, Department of Agriculture, that 
because they come from a highly respected position, in the 
first place, that the information they impart will be viewed as 
credible. And I think, for a National Climate Service to be 
effective, it has to have that credibility. And so many of the 
Federal agencies, that I think will be part of that 
partnership, have that credibility.
    Of course, NOAA has that incredible credibility, and the 
National Weather Service has that credibility, which people in 
the mid-States have always relied on. The National Weather 
Service, in terms of weather for crops and for so many other 
decisions that--in the construction industry, and recreation, 
and the list goes on and on.
    But, NOAA has been doing--providing this data, for decades, 
and we are proud of that leadership position. In many cases, we 
are the world's largest, most-respected repository of climate 
data information, greenhouse gas data, and we intend to 
continue to exert that leadership position.
    I also think that we need to figure out ways in which we 
can disseminate that information, all of the information, from 
all the different Federal agencies, in a way that's more 
appealing to the general public. And so, what we're doing at 
the Department of Commerce, at NOAA, for instance, to have all 
our climate information services basically at one stop, one 
location, one website, to make it easier for users, public/
private sector, individuals, government, to access, I think, is 
key.
    And second of all, there will always be some people who, 
even with the information, will fail to take the necessary 
steps. As Governor, there were parts of the State of Washington 
that routinely flooded and the Federal Government, with FEMA, 
was always going in and providing help. And we would tell these 
people, ``You really need to move out of the floodplain.'' The 
insurance companies would no longer insure their homes. And 
yet, they stayed. Even though it would be more cost effective 
to take the State and Federal funds, insurance funds, and move, 
or even move the entire town, and yet people would resist until 
the very, very last minute.
    But, I think that, with information, most Americans are 
willing to make changes. And if they know that it's in their 
economic interest to make changes, whether simply to insulate 
your house, put more insulation in the attic, and you can show 
the payback, and the payback of using energy-efficient 
appliances, I think most people, most Americans, want that 
information, desire that information, and will act accordingly.
    Dr. Holdren. Senator, if I may just add----
    The Chairman. Please.
    Dr. Holdren.--to what the Secretary has said, and take off 
from his last point.
    The fact that this is not just a bad-news story, that this 
is a story of challenge, but also of opportunity, that there 
are ways to address the climate change issue in a manner that 
will make money, that will create jobs, that will drive new 
industries, I think it's terribly important that we get better 
at communicating this message that we're not simply in a 
position where we have to wring our hands. There's a lot we can 
do, both to reduce the potential damages of climate change, but 
to benefit from innovation and what we often call win-win 
approaches, measures that make sense in their own right, even 
if you weren't worried about climate change, but will help you 
with climate change, as well. Getting people off of the 
floodplains is a good example of that. We should be doing that 
anyway, just on the basis of the frequency with which major 
floods come along, even in a climate that is not changing. We 
simply have to do it even more urgently with climate changing.
    We have to get better at telling the story, but the story 
is also telling itself more and more powerfully. And even in 
parts of the country which may initially not be experiencing 
such a high rate of obvious climate change, people will 
continue to turn on their televisions and see what's happening 
elsewhere and, I think, ultimately, come to the understanding 
that this a challenge that we're all in together and that we 
all have to meet.
    The Chairman. Just to end my time, the perfect example is 
in, let's say, West Virginia. Four percent of our land is flat, 
as I am painfully aware, and everything else is--goes up or 
down. We have a lot of rain. Water is not our problem. And we 
have a lot of flooding. That's a big problem. People get 
flooded out of their houses because they have five generations 
who have lived on this house on the Little Coal River or the 
Big Sandy River, or whatever it is, and it gets flooded out. 
And only 4 percent of the people had flood insurance, 20 years 
ago; only 4 percent of the people have flood insurance today. 
They get flooded out, and move back in--and move back in, 
really, to nothing. They get taken in by their neighbors, 
because that's what we do in West Virginia--you never have to 
open up a National Guard armory. You do, in case, but you 
don't--it doesn't get used, because people take each other in. 
In other words, they are using traditional means of overcoming 
newer and worse and more dangerous problems, simply because the 
silt level is building up, and all the rest of it.
    And I--I'm not asking a question, I'm just trying to 
urgently make the point that people accept something as being 
in their interest, not because somebody's going to make money 
off of it--that's for--the lucky entrepreneurs will have that--
but, the rest will be changing the way they live, and being a 
little grumpy about it, in certain parts of the country, 
including some of the coastal areas, I'm sure. I'm sure that's 
true in Alaska. You know, people don't like change.
    So, I just think it's a huge psychological factor in the 
incredible work that all of you at the table, and behind the 
table, are doing to virtually save this Nation and this planet. 
No response required.
    Senator Begich?
    Senator Begich. Thank you very much.
    First, I want to thank the panel and the Chairman, because 
you just--you know, I have a new home, here, and I--you just 
reminded me--I had to put it on my list, here--to get the white 
coating for my black tar roof, so I can save a little energy. 
So, you just made me think about it, so thank you very much for 
that part of it, for a personal opportunity.
    Secretary Locke. And maybe put on a solar panel, on top, 
while you're at it.
    [Laughter.]
    Senator Begich. Well, you know, I'm north, so it doesn't 
bring the sun in properly, but thank you for that.
    You know, the commentary--and this is where I'm 
struggling--in part, is what the Chairman talked about, which 
is simplification of the message so the public understands 
what's in it for them. I mean, that's basically--in order to 
get their interest--they do see it, but when they see, you 
know, Shishmaref, Alaska, disappeared in the ocean, and you 
live in Kansas, it's not a direct connection; but yet, it will 
be at some point. So, how we make that real is important. And I 
think the Chairman has a very good point there.
    But, the one that--I'm going to throw out an idea. I know, 
in some existing legislation, this exists, to some extent, but 
not for all departments. But, in order to get the 
coordination--and what I see--now, again, I've gone through, 
now, a couple of these hearings with different folks. Everyone 
has a piece of climate change, in some form or another. The 
goal is to try to bring it together, coordinate it. But, in 
the--I know, in the Waxman-Markey bill, the national climate 
office--or service office isn't going to be in place for 3 
years. It actually has a delayed implementation time, which--of 
course, I would argue that it should be now, and then work to 
implement. But, as a former mayor, getting departments on a 
common goal is a difficult task. As a mayor--strong mayor for--
I could pull the trigger and make him do it. You're going to 
run in--an office within the White House, you run a department, 
which, in itself, is going to be difficult.
    What happens if this could occur, and tell me what you 
think of this. If, in the end day of a climate change bill, 
that all budgets that are directly related to climate change 
issues have to be a unified budget--in other words, the 
budget's drive the operations around here.
    Voice. Right.
    Senator Begich. You know, great policy--everyone talks 
about great reports, but the money drives the show. So, if it 
was required that all the budgets have to be unified in one 
central point, maybe your office or some office that has to 
review that so you're not duplicating efforts or spreading 
efforts around--does that make any sense to either one of you? 
And I--maybe the things that are too logical won't make sense 
here in this group, but I'm hoping----
    Dr. Holdren. Well, Senator, we actually do that, to a very 
substantial extent, in the interaction of OMB with OSTP----
    Senator Begich. Let me hold you there. This is what I know 
about--yes. But, when we see it, we really don't see it stand 
out that way. I mean, OMB tries to bring it--I'm familiar with 
that. But, I sit in--I mean, I'm on the Arms Services 
Committee, I hear what Senator Nelson talked about. DOD has a 
piece of the action. You know, everyone has a piece. But, from 
a policymaker standpoint, we don't see that.
    Dr. Holdren. Well, maybe that's another part of the story 
we need to get better at telling----
    Senator Begich. Right. Well, I----
    Dr. Holdren.--coordination is among those different pieces.
    Senator Begich. Yes. I mean--but, you agree with that 
principle.
    Dr. Holdren. Yes.
    Senator Begich. OK.
    Secretary Locke. I think it's a great idea to have, on--a 
single document that shows all the spending and the budgets 
related to climate services from all the different agencies----
    Voice. Right.
    Secretary Locke.--so that the policymakers are able to see 
what NASA is doing, what EPA is doing, what Agriculture is 
doing, what Interior is doing, what NOAA is doing, what NIST is 
doing within the Department of Commerce, so you see, in one 
format, what everyone is doing by way of climate services, so 
that you, as a policymaker, can say, actually, that you think 
this area needs to be increased or this area is deficient, this 
area is being neglected, and this area needs to be emphasized.
    Senator Begich. Now, let me ask you one more step. And, Mr. 
Holdren or Secretary Locke, either one of you could answer 
this. But, again, as a former mayor, I know OMB's operation 
is--it's number-crunching, it's balancing--policy is a piece of 
it, but not as much as the agencies.
    Should there be one person or one director or level person 
that says, ``I see the whole budget, but, geez, Department of 
Commerce--you know, Ag's already doing this. We're not going to 
have you budget for that''--or vice versa--should one person or 
one agency have that role? Not--OMB is a different ballgame, I 
mean they're the guys that you all go to, you plead your case, 
and they smile, and say, ``Thank you very much,'' and then they 
do whatever they do, and then they give you back a budget, and 
you have to live with it. But, from a policy standpoint.
    Dr. Holdren. Well, I actually have a very specific 
responsibility to do that, together with Peter Orszag, the 
Director of OMB. And I bring the science and technology policy 
perspective that is responsible for integrating the pieces from 
the different agencies. And if that's gotten wrong, it's my 
fault. The----
    Senator Begich. But, I guess----
    Dr. Holdren.--the Administration's budget request does 
include a section where the various interagency crosscutting 
programs are described in one place. And I very strongly 
suspect that, in future years, the climate services will be a 
category that gets that sort of attention.
    Senator Begich. But, it's this----
    Dr. Holdren. The Global Change Research Program already 
gets that sort of attention, but climate services, I expect, 
will get it, in the future, so one will be able to see what the 
whole picture looks like, who's doing what, where the gaps are, 
and what needs to be filled. I completely agree that that's 
desirable, and I say to you, if it doesn't happen in the White 
House in this domain, it's going to be my fault.
    Senator Begich. OK. Well, I would--I appreciate that, for 
taking the heat. But, the piece, too, for example--and my time 
is up, and we're--got to run to votes--but, you know, I look at 
the title of your office, Science and Technology; I don't see 
``Economic Development,'' so forth, so on. So, the coordination 
of all these pieces--there's so much engaged in this. I mean, 
as we talk about the Arctic, which is the premier result of 
climate change----
    Voice. Yes.
    Senator Begich.--Defense Department's going to be a 
critical piece of that, Transportation's going to be a critical 
piece, the Coast Guard will be a critical piece. So, that's--I 
appreciate your comments, because I think that's where I 
continually go back to, that if you don't coordinate this, 
develop it enough, where we, as policymakers, can see the big 
picture and see how all these play into it, and not duplicate 
our efforts, but really focus them, we're losing ground 
quickly.
    Dr. Holdren. No, I do understand, Senator. And let me just 
mention that my Deputy Director for Policy is dual-hatted with 
the National Economic Council.
    Senator Begich. Good.
    Dr. Holdren. My Associate Director for National Security 
and International Affairs, who has not yet been appointed, but 
I hope to be coming to this Committee soon with the nomination, 
will be dual-hatted with the National Security Council.
    So, we are aware of these intersections and the need to 
coordinate across these boundaries.
    Senator Begich. Great.
    Dr. Holdren. And my own inclination, for my whole long 
disciplinary career, has been crossing boundaries and putting 
pieces together, so I do intend to get it right in the White 
House.
    Senator Begich. Thank you very much. And, Secretary Locke, 
thank you very much, also, for your commentary.
    Secretary Locke. Thank you.
    The Chairman. Let me just end on this note, we--the reason 
that Senator Begich and I are asking these questions, and 
others ask these questions, is only made possible because we 
already have in place the beginning of all of this, the right 
beginning, which is called ``you.'' The President, I think, has 
surrounded himself with some of the most brilliant choices--Dr. 
Holdren, I don't want to embarrass you, but I sometimes refer 
to you as ``walking on water.''
    [Laughter.]
    The Chairman. That may be the end of your career, but----
    [Laughter.]
    The Chairman. You know, we brought that 5-percent carbon 
guy from New Hampshire, and had him sit right where you are, 
and he told us all about it, because you told me about it. A 
really superb technical scientific team. And everything else, 
of the questions we ask and ``How do Americans understand all 
this, and react to it?'' is incredibly important. But, we're--
what we--we need to know that is already in place and working 
is the top part of the team, spreading out and coordinating, 
superb thinking, superb arguments, and, you know, a superb 
policy.
    So, I--frankly, it's one of the most exciting things about 
this Administration, is just the presence of all of you.
    And, on that dour note, the hearing is over.
    [Whereupon, at 3:50 p.m., the hearing was adjourned.]


                            A P P E N D I X

Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                         to Hon. Gary F. Locke

    Question 1. How is the Department of Commerce reorganizing its 
programs to be more user-focused and respond to community and business 
needs to address climate change?
    Answer. One of my priorities as Secretary is to ensure that the 
services the Department of Commerce provides to the American people and 
businesses are easily accessible and user-friendly. In June 2009, I 
launched the Department's ``one-stop'' shop initiative to provide a 
single point of contact for the full-spectrum of Commerce programs 
available to business owners. The first ``one-stop'' shop will open in 
Detroit, Michigan, and will serve as a model for other metropolitan 
centers across the country.
    In the same way, I believe there is a strong need for a National 
Climate Service that is coordinated across Federal agencies and user-
driven to meet the needs of public and private sector decision-makers. 
NOAA is already working to improve and strengthen its climate services. 
However, more needs to be done. The Department of Commerce is working 
with its Federal partners, including the National Science Foundation, 
the Departments of Agriculture, Energy, and the Interior, the 
Environmental Protection Agency, the National Aeronautics and Space 
Administration, and the Office of Science and Technology Policy, among 
others, to address the growing demand for climate services.
    NOAA already provides a wide array of climate information and 
services including ground, ocean and space-based observations, climate 
assessments, drought early warning information, and climate predictions 
and projections. This information is delivered to a range of users. For 
example, NOAA provides information to local coastal managers to help 
prepare for and mitigate against likely changes in sea level, storms 
and ocean temperatures.
    For inland and coastal states alike, the issue of water management 
in our changing climate is critical. For example, NOAA's climate 
information indicates that the state of West Virginia is projected to 
continue receiving very heavy rainstorms with longer dry periods 
between. Targeted climate services are helping state and local managers 
to ensure that heavier rainfall can be handled by stormwater systems 
and reservoirs are big enough to ensure ample water supply during dry 
periods.
    In 2008, NOAA began an effort to improve its integrated climate 
services to, among other things, develop and deliver a broader range of 
operational climate information products and services in partnership 
with other Federal agencies with trust resource mandates. To ensure 
NOAA is best organized internally to coordinate its climate services, I 
have asked Dr. Lubchenco to integrate the climate services interspersed 
throughout NOAA's line offices into one office so users only have to 
knock on one door to access NOAA's diverse expert resources.
    I look forward to working with the Committee on these efforts.

    Question 2. Has the United States ever conducted an oceans 
assessment to analyze the effects of global change? Would NOAA support 
an oceans assessment, either by the United States or as an 
international effort?
    Answer. No, to the best of my knowledge, the United States has not 
conducted a comprehensive national oceans assessment to analyze the 
effects of global climate change on the environment and ecosystems.
    President Obama, recognizing the need for a comprehensive national 
oceans policy, including an ecosystem-based framework for the long-term 
conservation of our resources, established the White House Ocean Policy 
Task Force. Under Secretary Lubchenco, representing the Department of 
Commerce, has provided a strong voice on the Task Force.
    Should the Task Force develop recommendations for an integrated 
ocean ecosystem assessment, the Department, through NOAA, stands ready 
to bring its assets and expertise to bear to support such an effort.

    Question 3. Is our current greenhouse gas monitoring and 
measurement system sufficient to meet our needs to verify emission 
reductions at the regional, national, and international levels? If not, 
what is lacking with the current system and how do we make 
improvements?
    Answer. NOAA's sustained efforts to monitor and measure the carbon 
cycle in the atmosphere and oceans over more than 40 years provide a 
key component of the basis for our understanding of climate change 
today.
    In addition, NOAA and its sister agency, the Department's National 
Institute of Standards and Technology play a crucial role in ensuring 
the accuracy and reliability of monitoring by providing an unbiased 
scientific assessment of the quality of current greenhouse gas 
measurements and models, as well as evaluation and validation of new 
standards and measurement methods.
    Other Federal greenhouse gas monitoring and measurement systems 
also provide a strong foundation for emission reduction efforts today. 
EPA, USDA, and DOE have facility, corporate, regional and national 
level reporting systems that can be used to support comprehensive 
economy wide and credible reduction programs for greenhouse gases. 
Examples include the Inventory of U.S. Greenhouse Gases and Sinks, 
EPA's proposed mandatory reporting rule for greenhouse gases, 
measurement of CO<INF>2</INF> emissions from the electric power sector 
under the Clean Air Act's Acid Rain Program (accounting for 1/3 of all 
U.S. CO<INF>2</INF> emissions), and robust statistical systems for 
gathering activity data from energy and land-use that are implemented 
by DOE and USDA, respectively. The U.S. Government has worked with 
partner nations on the implementation of measurement systems to track 
emission reductions internationally.
    Our country is poised to embark on a critical effort to curb 
greenhouse gas emissions to avoid the most severe impacts of climate 
change. To be effective in this endeavor, we must upgrade the current 
greenhouse gas and aerosol monitoring system to ensure our monitoring 
of greenhouse gases is comprehensive, coordinated, and globally 
coherent. Current greenhouse gas monitoring systems implemented by 
Federal science agencies are designed to support research to understand 
the role of the carbon cycle and gases and aerosols in climate change. 
However, the growing need for scientific verification and support for 
efforts to mitigate climate change requires a sustained, more 
comprehensive and operational monitoring system. Such an approach 
should combine ground-based and space-based observations, self-
reporting by industry, carbon-cycle modeling, fossil-fuel use data, 
land-use data and a strong analytic component. This comprehensive 
approach has proven instrumental in the effective implementation of 
other policy frameworks for reduction of atmospheric pollutants, 
including the greenhouse gas sulfur hexafluoride and ozone depleting 
hydrochlorofluorocarbons, both covered by the Montreal Protocol.
    A comprehensive monitoring and analysis system that involves a 
number of agencies will allow validation, on regional scales, whether 
reported emissions are consistent with atmospheric concentrations. Such 
understanding and verification are critical to determining whether 
domestic and international policy decisions are having their intended 
effects, and being implemented equitably and efficiently.

    Question 4. There is growing interest to establish and operate a 
National Climate Service. Yet, there was not a request for the National 
Climate Service in the FY 2010 budget request for NOAA. How does NOAA's 
budget support this effort? Will you include a robust request for the 
National Climate Service in your FY2011 budget for NOAA?
    Answer. A National Climate Service should be established as the 
bridge between decision-makers and climate change science and 
information, providing timely and authoritative information, such as 
predictions of changing temperatures and water availability, and 
assessments of associated impacts, risks, and vulnerabilities.
    NOAA provides a wide-array of climate information and services 
including ground, ocean and space-based observations, climate 
assessments, drought early warning information, and climate predictions 
and projections. NOAA currently works with a broad spectrum of users to 
provide climate change information to help inform resource management, 
business, and industry decisionmaking.
    NOAA is already moving forward to improve and strengthen its 
climate services. NOAA envisions a National Climate Service as a 
partnership that would be established among other Federal agencies, 
various levels of government, and the private sector. While there is no 
specific request for the National Climate Service in FY 2010, NOAA's 
budget request provides a foundation for strengthening climate services 
and building a broader national effort.
    NOAA requested $297 million for climate activities in FY 2010. The 
FY 2010 request supports and enhances NOAA's integrated program of 
climate observations, research, modeling, prediction, decision support, 
and assessment.
    NOAA has taken several near-term actions within its existing 
authorities to improve how it delivers climate science and services. 
NOAA has been evaluating climate services activities within the agency, 
and is actively engaging its partners and the user community to 
determine their specific information needs and the contributions these 
groups may bring to the development of climate services. NOAA looks 
forward to engaging in these dialogues with the Congress, its Federal 
agency partners, and the range of public and private sector interests 
in climate services, as the Administration moves forward to coordinate 
and expand its national climate science programs and develop the FY 
2011 budget.

    Question 5. How is NOAA helping coastal communities, marine 
resource managers, and ocean industries adapt to climate change? What 
additional authorities and resources does the Department need to 
improve marine adaptation efforts?
    Answer. Climate change is already having significant impacts on our 
coastal and marine resources, environments, and communities. Given its 
stewardship responsibilities, NOAA is both a producer and a consumer of 
climate change information. NOAA' s climate services already reach 
coastal communities, marine resource managers and ocean industries. 
NOAA provides local managers information on likely changes in sea 
level, storms and ocean temperatures. In addition, coastal communities, 
decision-makers, and relevant industries and organizations have been 
engaged in an ongoing dialogue about their needs for climate 
information and access to the climate services they require.
    Climate change information is already being incorporated into 
marine resource and coastal ecosystem management decisions within NOAA 
through adaptation planning for marine fisheries, coastal and ocean 
habitats. NOAA's mandated responsibilities include, for example: 
fisheries, endangered species and marine mammal management, National 
Marine Sanctuaries, and coastal and estuarine management. With each of 
these mandates, NOAA managers must account for the effects of climate 
variability and change on coastal and marine ecosystems, resources, and 
communities to adapt their management practices accordingly. For 
example, NOAA is incorporating climate information into living resource 
management in a variety of ways, such as considering water use planning 
decisions in salmon management, measuring and evaluating the effects of 
sea level rise and the loss of sea ice on protected resources, and 
determining the impact of warming ocean temperatures on the 
productivity and distribution of fisheries, marine mammals, and 
habitats.
    In addition, NOAA supports other Federal agencies, state and local 
governments, and the private sector, as they make decisions about 
adapting to climate change including coastal planning and development 
efforts, maritime transportation, water resource management, and other 
issues such as insurance, energy and agriculture. For example, NOAA is 
integrating its climate and ocean ecosystem observations and 
predictions to improve its delivery of climate information and tools to 
ocean and coastal decision-makers, and to assist them in managing and 
adapting to a changing climate.

    Question 6. Given NIST's critical role in developing the 
foundational science to enable Earth observations, climate science, 
mitigation technologies, and cap and trade monitoring and verification, 
how are they coordinating with other agencies to ensure accurate 
assessments of climate change?
    Answer. NIST will continue to provide the basis for the unbiased 
scientific assessment of the quality of current greenhouse gas 
measurements. These activities span the range of measurements upon 
which a comprehensive U.S. monitoring system will be based and ensures 
its international recognition. Expansion of NIST's engagement with 
other Federal agencies, including NOAA, NASA, NSF, EPA, the Departments 
of Transportation, Energy, and Agriculture, will provide the 
measurements and standards foundation of a comprehensive monitoring 
system.
    In addition, NIST is initiating engagement with the private sector 
to strengthen current measurement practices and standards, to develop 
new measurement approaches for monitoring and verification, and, where 
feasible, to provide a range of measurement approaches for individual 
emissions source or sink monitoring. Because the private sector will 
bear significant responsibility for facility-by-facility implementation 
of mitigation approaches, cooperative efforts between industry and 
government will enhance the quality of U.S. inventories through 
development and use of measurements and standards closely tied to 
national measurement standards and measurement science. The long 
history of successful NIST engagement with the private sector, in its 
third party role, and with the consensus standards community will 
strengthen confidence in greenhouse quantity determination, improving 
compliance with market-based reforms and regulation of carbon 
pollution. As harmonization of U.S. inventories with those of other 
countries becomes a more pressing need, the internationally-recognized 
measurements and standards foundation provided by NIST will be critical 
to acceptance of U.S. inventories internationally.
    Some specific examples of current NIST involvement include:

  <bullet> Participation in policy-level coordination activities at the 
        interagency and international levels.

  <bullet> Participation in measurement and monitoring discussions in 
        many strategic working groups, committees and workshops along 
        with other Federal agencies, the academic climate change 
        research community and the private sector.

  <bullet> Direct interaction with other Federal agencies in the 
        following areas:

    <bullet> Measurement and calibration standards for remote-sensing 
            satellite instruments and sensors. NISI has partnered on 
            workshops with the satellite programs at NASA and NOAA to 
            improve satellite measurements associated with climate 
            change and to reduce key discrepancies in climate 
            measurements. NIST also works with NASA, USGS, and NOAA's 
            satellite programs (NPOESS, GOES-R, CLARREO, EOS, LDCM 
            etc.) to help improve the accuracy and comparability of 
            satellite measurements.

    <bullet> Measurement needs in greenhouse gas monitoring system. 
            NIST is developing new measurement science and standards to 
            improve the accuracy and comparability of climate change 
            and greenhouse gas measurements. NIST works with NASA to 
            provide key laboratory data that supports satellite 
            measurements of the state of the atmosphere.

    <bullet> Identification of gaps in the measurement capabilities 
            critical to climate change monitoring. NIST, with American 
            Recovery and Reinvestment Act funding, has developed a 
            grant program to solicit new measurement science technology 
            in support of climate and environmental measurement.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                     to Hon. John P. Holdren, Ph.D.

    Question 1. How is the Administration keeping an eye on the budgets 
of individual Federal agencies, as well as on the overall Global Change 
Research Program so that the Nation has a well-funded, comprehensive 
climate program--one that serves the Nation's needs?
    Answer. OSTP, the Council on Environmental Quality, the Office of 
Management and Budget, and the Office of Energy and Climate Change 
monitor the budgets and activities of Federal climate change programs 
on an ongoing basis. OSTP provides leadership for the U.S. Global 
Change Research Program (USGCRP), and we are integrating its activities 
with other climate change programs such as the Climate Change 
Technology Program, our international climate change programs, and 
ongoing climate-related activities in departments and agencies that do 
not otherwise fall under the purview of USGCRP. We use USGCRP and 
agency expertise and data to identify and address research gaps, and we 
actively seek out resources or initiatives to close the gaps. We are 
currently engaged with OMB in a comprehensive assessment of Fiscal Year 
(FY) 2010 climate change spending, and we have begun to identify 
resource requirements, scientific opportunities, and science and 
technology needs in the climate change domain in preparing the FY 2011 
budget request.

    Question 2. What do you see as the strengths and weaknesses of the 
Global Change Research Program? What specific changes would you 
recommend to respond to current and future climate change challenges?
    Answer. The U.S. Global Change Research Program (USGCRP) brings 
together into a single interagency program the essential capacities for 
research and observations on climate change that are widely distributed 
across government agencies. Growing out of interagency activities and 
planning beginning in about 1988, and receiving congressional support 
under the Global Change Research Act (GCRA) in 1990, the USGCRP has 
energized cooperative interagency activities, with each agency bringing 
its strength to the collaborative effort. An essential component of 
success in delivering the information necessary for decisionmaking is 
coordination of the programmatic and budgetary decisions of the 13 
agencies that make up the USGCRP. OSTP and OMB work closely with the 
USGCRP Interagency Integration and Coordination Office and the USGCRP 
interagency working groups to establish research priorities and funding 
plans to assure the program is aligned with the Administration's 
priorities and reflects agency planning.
    The cooperative work of the USGCRP agencies has yielded significant 
advances in our characterization, understanding, and ability to predict 
climate variability and change. This integrated work culminated in the 
recent release of the report, Global Climate Change Impacts in the 
United States, which provides concrete scientific evidence that the 
climate is changing and presents the most comprehensive available 
picture of likely current and future impacts on specific regions and 
sectors.
    USGCRP's strength in climate science is attested to in a recent 
evaluation by the National Research Council \1\ The same study, 
however, also identified areas for programmatic improvement, including 
the need to make progress on applying climate-science knowledge in 
management and decisionmaking, improving predictive capabilities at 
regional and local scales, and increasing understanding of human 
impacts.
---------------------------------------------------------------------------
    \1\ NRC, 2007, Evaluating Progress of the U.S. Climate Change 
Science Program: Methods and Preliminary Results, National Academies 
Press, Washington, D.C., 170 pp.
---------------------------------------------------------------------------
    Another recent NRC study \2\ points to the difficulty of 
transforming the program from one focused on understanding causes and 
processes of climate change to support for actions needed to cope with 
the approaching societal problems associated with its impacts. This 
transition will require the USGCRP to support a balanced portfolio of 
fundamental and application-oriented research activities from expanded 
modeling efforts to studies of coupled human-natural systems and 
institutional resilience.
---------------------------------------------------------------------------
    \2\ NRC, 2009, Restructuring Federal Climate Research to Meet the 
Challenges of Climate Change, National Academies Press, Washington DC, 
266 p.
---------------------------------------------------------------------------
    Both NRC studies emphasize the need to link sound climate change 
science and information with decision-making for society's benefit. For 
example, it is important for the USGCRP to make a strong commitment to 
providing the information that society is seeking in order to reduce 
vulnerabilities and improve resilience to variability and change. One 
essential element for making this link is the coordination of the 
programmatic and budgetary decisions among the 13 agencies comprising 
the USGCRP. This coordination role must continue based on a fully 
integrated research plan with an interagency budget crosscut. There are 
specific research areas that the research plan should include to better 
link science and information with decision-making, and these areas must 
be addressed by expertise from agencies that are strong in social 
sciences and economics as well as the physical and biological sciences.

    Question 3. How is the Office of Science and Technology Policy 
engaging and coordinating the efforts of academia, private industry, 
and Federal agencies to develop an integrated and comprehensive network 
to provide usable climate information to stakeholders and 
decisionmakers?
    Answer. Coordinated climate information and services are needed to 
assist decision-making across public and private sectors. Just as the 
Nation's climate research efforts require and benefit from interagency 
and academic partnerships, so too will the development and 
communication of climate change information to users.
    While much work has been done to evaluate the need for climate 
services and a National Climate Service, the Administration believes 
that additional assessment and analysis of existing climate- service 
capabilities and user needs for climate services is necessary. A 
National Climate Service and, more broadly, our Nation's approach to 
delivering climate services will require that such analysis and 
assessment is ongoing, science-based, user-responsive, and relevant to 
all levels of interest, e.g., local, regional, national and 
international. Such a framework must also be able to adapt to new 
developments in the scientific understanding of climate change and 
resultant impacts to serve the needs of decision-makers and the public.
    To promptly address this issue within the Federal Government, OSTP 
is working to convene a task force with representation from a diverse 
group of key agencies whose charge will be to examine national assets, 
existing data and information gaps, and costs related to the 
development of a cohesive framework for delivering accurate climate-
related information to the public. This process is intended to result 
in a more detailed functional and organizational approach for 
delivering climate services to the Nation.
    As part of the process to engage external stakeholders and 
customers, the USGCRP has undertaken a series of ``listening sessions'' 
with a variety of stakeholder groups, including from academia, private 
industry, and nongovernmental organizations, around the country to gain 
a better understanding of the emerging needs for climate information 
and ways in which Federal research might be shaped to meet those needs. 
The program and its member departments and agencies have also 
commissioned a number of reports from the National Research Council to 
help guide it in its current activities and future planning, including 
the recently published NRC reports Restructuring Federal Climate 
Research to Meet the Challenges of Climate Change (2009) and Informing 
Decisions in a Changing Climate (2009). To be successful, the delivery 
of climate services will require sustained Federal agency partnerships, 
such as those fostered by the USGCRP, and collaboration with climate 
service providers and end users.

    Question 4. Dr. Holdren, given that a national assessment of 
climate change has not been conducted since 2000, are you making it a 
priority to do so within the next 4 years as required by law?
    Answer. Yes, absolutely. The recently released Global Climate 
Change Impacts in the United States report and the underlying Synthesis 
and Assessment Products provide a useful foundation on which to build 
the next national assessment.

    Question 4a. If yes, how will the Administration make sure the 
assessment has broad stakeholder participation to determine the risks 
and costs of climate change impacts on the United States and to 
evaluate options for responding? If no, why not?
    Answer. Broad stakeholder participation is critical for this type 
of comprehensive assessment and product. We will employ a wide variety 
of traditional techniques for gathering this input such as public 
meetings, requests for comments on drafts published in the Federal 
register, interaction with academe, and others. We will also take 
advantage of new methods currently being pioneered at OSTP and other 
government agencies to promote open government and to engage 
stakeholders via a variety of electronic means such as web-postings and 
blogs.

    Question 5. Has the United States ever conducted an oceans 
assessment to analyze the effects of global change? Would you support 
an oceans assessment, either by the United States or as an 
international effort?
    Answer. While a comprehensive assessment of the oceans and global 
change has never been undertaken, a number of domestic and 
international efforts have assessed some of the effects of climate 
change on coastal and oceanic regions. Many aspects of coastal effects 
were recently documented in the U.S. Global Research Program (USGCRP)'s 
report, Global Climate Change Impacts in the United States. Coastal 
regions will be considered in the national assessment under discussion 
by the USGCRP that is mandated by the U.S. Global Change Research Act 
and due in 2012. In addition, the National Marine Fisheries Service and 
international counterparts conduct assessments of fishing pressure and 
the status of living marine resources, and these efforts should 
contribute to our understanding in the long term. A global marine 
assessment to complement the efforts already undertaken by the 
Intergovernmental Panel on Climate Change (IPCC) is under consideration 
by the Intergovernmental Oceanographic Commission and other United 
Nations bodies. It is unclear at this early stage whether the effort 
would be cost-effective and significantly add to the IPCC and other 
efforts.

    Question 6. Is our current greenhouse gas monitoring and 
measurement system sufficient to meet our needs to verify emission 
reductions at the regional, national, and international levels?
    Answer. Methods are currently available for calculating GHG 
emissions and uptake at scales from projects to nations. The capacity 
to confirm such calculations with observations with the needed coverage 
and at all the relevant scales does not yet exist, however. I believe 
that the existing information and measurement capabilities are adequate 
to support the initiation of national climate policies, but achieving 
the high level of accuracy, precision, and confidence that decision-
makers and the public will want concerning offsets and the reality of 
emissions reductions or uptake increases claimed for other initiatives 
in the agriculture, forestry, energy, and other sectors will require 
continuing effort to improve our understanding of and ability to 
accurately and precisely measure stocks and flows of carbon and 
nitrogen at global, regional, and local scales.

    Question 6a. If not, what is lacking with the current system and 
how do we make improvements?
    Answer. At the Earth's surface (in situ systems on land, sea, and 
airborne platforms) the United States currently has good approaches for 
taking inventory of greenhouse gas emissions. Fossil fuel emissions are 
tracked by EPA and EIA, while biosphere contributions to emissions 
(e.g., agriculture, forests, soils), are tracked by USDA. In addition, 
the Department of Commerce's National Oceanic and Atmospheric 
Administration (NOAA) provides most of the world's long-term 
measurements of greenhouse gases in the atmosphere, and currently 
operates 2/3 of the global atmospheric greenhouse gas observing sites. 
NOAA and NSF together also provide about half of the world's oceanic 
greenhouse gas measurements. However, these systems do not account for 
all greenhouse gases, and our biosphere monitoring is not 
comprehensive. Further, the current surface-based carbon dioxide 
monitoring network alone is too sparse to identify the locations of 
carbon sinks, or tell us what controls changes in their efficiency from 
year to year.
    In space, NASA, NOAA, and USGS operate satellites that acquire 
surface characteristics of the land and ocean, as well as weather 
satellites that provide information necessary for tracking gas 
distributions in the atmosphere. Current space-based capabilities need 
to be tied to accurate in situ surface sensor measurements and higher-
density space-based observations are necessary for fine scale 
monitoring of sources and sinks of greenhouse gases that will allow for 
the verification of emissions reductions offsets and of the effects of 
climate change. Additionally, measurements at all spatial and temporal 
scales must be based on internationally-recognized measurement 
standards, established and disseminated for the U.S. by the Department 
of Commerce's National Institute of Standards and Technology (NIST), to 
ensure their accuracy and comparability.
    In the future, space-based remote sensing of atmospheric 
CO<INF>2</INF> has potential to deliver data products with the 
accuracy, precision, temporal and spatial resolution, and coverage to 
independently assess the variability of CO<INF>2</INF> sources and 
sinks at regional, national and international levels. This information 
could help facilitate emissions reduction verification. Robust surface-
based observations will be necessary in the testing and refining of 
satellite measurement capability, and the ability to measure and 
describe components contributions to aggregate CO<INF>2</INF> sources 
and sinks.

    Question 7. Do you think that our current Earth observing 
capabilities are adequate to provide decision-makers and policymakers 
with the information they need to respond to climate change?
    Answer. The United States and our partners around the world operate 
a vast array of instruments and systems that provide data on many 
important phenomena, but the development of an integrated climate 
observing system stands as an important challenge. Long-term, high-
accuracy, stable environmental observations are essential to define the 
state of the global integrated Earth system, its history and its future 
variability and change. To a large degree, the existing Federal 
observational capabilities have been only loosely integrated. The 
critical leap forward can only be achieved with a synergy between 
remotely sensed and in situ observations supported by robust data 
systems. One endeavor to address this challenge is the Global Climate 
Observing System (GCOS), a ``system of systems'' that builds on the 
climate-relevant components of existing observing systems. GCOS is the 
climate observing system within the Global Earth Observation System of 
Systems (GEOSS) developed under the auspices of the intergovernmental 
Group on Earth Observations (GEO).

    Question 7a. What are your plans to develop a robust, long-term, 
national Earth observing strategy to meet those needs?
    Answer. OSTP is currently addressing this challenge via the U.S. 
Group on Earth Observations (USGEO), an interagency subcommittee of the 
National Science and Technology Council charged with developing an 
integrated Earth observation system to ensure that adequate data, 
products, and services are available to wisely manage human and natural 
systems. This integrated approach takes into account the Earth 
observation activities of Federal, State, regional, local, tribal 
government, non-governmental organizations, academia, commercial firms 
and foreign governments, and it will encourage the full, open, and 
timely sharing and exchange of data, products, and services.

    Question 7b. How can you ensure that these observational data are 
comparable between different agencies, platforms, and countries?
    Answer. To ensure that observational data are comparable between 
different agencies, platforms, and countries, the strategy being worked 
on by USGEO will encourage the adoption of widely accepted standards, 
such as web-services-based service oriented architecture, as well as 
data management principles such as multi-use, preservation, quality, 
and access. Further, traceability of the measurements to standards 
based on the International System of Units (SI) such as provided by 
NIST and similar organizations around the world is fundamental for 
ensuring data accuracy and comparability independent of when and where 
the measurements were made. Data harmonization and interoperability 
efforts are coordinated nationally by USGEO, and internationally by the 
Group on Earth Observations (GEO).
                                 ______
                                 
Response to Written Questions Submitted by Hon. by Hon. David Vitter to 
                      Hon. John P. Holdren, Ph.D.

    Question 1. When was the last recorded global warming, as recorded 
by satellites? Does this shake your confidence at all in the climate 
models?
    Answer. Satellite data records for the temperature of the lower 
atmosphere (near the Earth's surface) have been available since 1979. 
In 2006, a summary comparing the satellite data and surface temperature 
records as recorded by thermometers (Climate Change Science Program 
Synthesis and Assessment Product 1.1 ``Temperature Trends in the Lower 
Atmosphere: Steps for Understanding and Reconciling Differences'') 
showed a substantial upward trend for the global averages of 
temperature for both the lower atmosphere and at the surface, starting 
at the beginning of the satellite data record and continuing through 
2005, the most recent year that was analyzed in the study. (See the 
response to question 5 for a discussion of the need to look at long-
term trends versus year-to-year-variability.) This long-term upward 
trend has continued in the surface temperature record, and is also 
accurately reproduced by the climate models, as shown in the recently 
released U.S. Global Change Research Program (USGCRP) report entitled 
``Global Change Impacts in the United States'' (2009). (See section 
titled ``Global Climate Change,'' pages 13-26.) The most recent data 
(last updated for August 2009) can be found on the website http://
data.giss.nasa.gov/gistemp/, with the methodology documented in the 
reference Hansen et al 2006: Global temperature change. Proc. Natl. 
Acad. Sci., 103, 14288-14293, doi:10.1073/pnas.0606291103. Thus the 
data records from both the satellites and surface thermometers, as well 
as the analyses of computer models, are all in agreement that the 
warming of the recent decades is real, continuing, and primarily due to 
human-caused emissions of heat-trapping gases.

    Question 2. Some scientists have said that climate is always 
changing--either warming or cooling? Is this correct, and for how many 
years (thousands, millions, billions) has the climate been changing?
    Answer. Climate has changed on many time scales throughout Earth's 
multi-billion-year history, for reasons ranging from variations in the 
sun's output, to re-arrangement of land and ocean areas under 
continental drift, to variations in Earth's orbit and tilt, to gradual 
changes in the composition of the atmosphere as a result of geochemical 
and biological processes, to more rapid changes in atmospheric 
composition caused by volcanism and asteroid impacts. The changes in 
climate now being imposed by human additions of heat-trapping gases and 
particles to the atmosphere are more rapid than almost all of the 
natural changes that came before--hence more difficult for ecosystems 
to adjust to. It can be added that the most rapid of the natural 
changes were associated with massive extinctions, and even some of the 
less rapid natural changes that occurred in the human era are thought 
to have played decisive roles in the disappearance of a number of 
premodern civilizations.

    Question 3. Was the climate warmer 1000 yrs ago than today?
    Answer. Paleoclimate analyses (in which temperature is inferred 
from tree rings, ice cores, sediment layers, fossil pollens, and so on) 
are used to answer such questions, since the global thermometer record 
only goes back about 150 years. These analyses, which are necessarily 
approximate, indicate that some regions in Northern Europe may have 
been warmer 1000 years ago than in the 20th Century, but that the globe 
as a whole was very likely cooler than in the 20th Century. (See for 
example the 2006 National Research Council report, ``Surface 
Temperature Reconstructions for the Last 2,000 Years'', which notes 
``an array of evidence that includes . . . pronounced changes in a 
variety of local proxy indicators, such as melting on icecaps and the 
retreat of glaciers around the world, which in many cases appear to be 
unprecedented during at least the last 2,000 years.'')

    Question 4. Would it be accurate or inaccurate to say that sea 
levels have been rising steadily for about 18,000 years, and why?
    Answer. Inaccurate. Following the end of the last ice age 
(approximately 21,000 years ago), sea level rose by about 120 meters, 
taking 18-19,000 years to do so before stabilizing between 3,000 and 
2,000 years ago. The evidence indicates that global sea level did not 
change significantly from then until the late 19th Century. The average 
rate of sea level rise in the 20th Century was about 1.5 millimeters 
per year; since 1993, the rate of rise has been around 3 mm per year, 
and the rate is continuing to increase.

    Question 5. Graphs that have been distributed recently on Capitol 
Hill by a number of organizations show that the climate has not warmed 
since 1998, while CO<INF>2</INF> levels have been rising.
    a. Please provide the most current satellite and balloon data.
    b. Please provide a comparison of the EACH of the model projections 
starting in the Year 2000 with the data from satellites and balloons.
    Answer. Attempts to support the claim that the Earth has not been 
warming since 1998 have generally been based on global average surface 
air temperatures as measured by thermometers, which are indeed a more 
direct and relevant indicator, compared to satellite and balloon 
measurements, of what is happening where it most matters--namely where 
the people, other organisms, soils, and most of the ice and liquid 
water are. The mistake in these attempts is that they confuse short-
term variability with long-term trends. A recent peer-reviewed paper 
(Easterling, D.R., and M.F. Wehner, 2009: Is the climate warming or 
cooling? Geophys. Res. Letts, 36, doi:10.1029/2009GL037810.) directly 
addresses the issue of confusing short-term variability with long-term 
warming due to increasing greenhouse gases. The paper shows that 
periods of a decade or two that show no warming or even slight cooling 
are found both in the observed record during periods of long-run 
warming and in climate-model simulations of strong warming driven to 
increasing greenhouse gases.
    Furthermore, 1998 was an exceptionally hot year--hotter than all of 
the succeeding ones until 2005--because it superimposed a very powerful 
El Nino on top of the long-run warming trend. This is evident in the 
year-by-year, global-average surface temperature data compiled by NASA 
(Figures 1 and 2). Also evident in these figures are: (1) the sudden 
coolings caused by the El Chichon and Pinatubo volcanic eruptions in 
the early 1980s and early 1990s, respectively, and (2) in Figure 1 two 
periods are highlighted that show no warming, even with the strong 
overall warming. These figures show that o One cannot draw valid 
conclusions about long-term trends from either the individual peaks or 
the individual valleys in year-to-year temperature trends.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 1. Globally averaged surface air temperature compiled by 
NASA. Blue lines are eight-year overlapping trend lines.

    Taking a closer look the effects of short-term variability can be 
separated from long-run trends by averaging over multi-year periods--
the longer the averaging period, the less evident the short-term 
variability becomes and the easier it is to see the underlying longterm 
trend. Shown in blue in Figure 1 are 8-year trend lines. These give the 
average rate of change over the 8-year period where each line begins. 
One can see that the high short-term variability of the 1980s and very 
early 1990s produced both upward and downward 8-year trend lines in 
this period. But one can also see that, even despite the large El Nino 
temperature spike in 1998, the 8-year trend lines from 1991 onward are 
all sloping upward--that is, all showing warming.
    In Figure 2, a longer averaging time reduces the influence of 
short-term variability still further. The blue lines now show the 15-
year trends, and one sees that they are consistently upward from the 
beginning of the plot in the late 1970s through the end of the data in 
2007.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 2. Same as in Figure 1 except the trend lines are for 
fifteen-year periods.

    To understand the relation of surface temperature measurements to 
those made from balloons and from satellites--and how these different 
sorts of measurements are now understood to be consistent with each 
other and with the predictions of climate models, please see the two 
enclosed references (Climate Change Science Program Synthesis and 
Assessment Product 1.1 ``Temperature Trends in the Lower Atmosphere: 
Steps for Understanding and Reconciling Differences''; and Santer et 
al., 2008: ``Consistency of modeled and observed temperature trends in 
the tropical troposphere'', Intl. J. Climatol., 28, 1703-1722, 
doi:10.1002/joc.1756).
    Unlike weather forecast models that start with the observed 
conditions and then simulate days or weeks into the future, climate 
models are started with conditions in, typically, 1,750 or 1,850, and 
then run without knowledge of observed conditions, except for observed 
changes in greenhouse gases and volcanic aerosols, to 2,000. To 
simulate future climate they are then run with scenarios of increasing 
greenhouse gases usually to 2,100. Climate models are not designed to 
try to simulate short-term variations (i.e., decadal to even multi-
decadal) in the climate, but the longer term changes in the baseline 
climate over multiple decades to centuries. What the models thus 
simulate (and each model is run a number of times to account for the 
chaotic behavior of the atmosphere) is the envelope of possible 
conditions over a period, and the question is then whether the observed 
climate is within that envelope of conditions. The crucial result of 
these comparisons is that the observed climate IS within the envelope 
of model simulations if and only if the model simulations include both 
human and natural influences over the course of the 20th Century. 
Figure 3 (from Easterling and Wehner 2009) shows one example of a 
climate model simulation for the 21st Century starting in 2001 that has 
strong increasing greenhouse gases and warms by about 4+C by 2100. Two 
periods are highlighted, 2001-2010 and 2016-2031, both of which show 
slight cooling, even though the simulation shows strong overall warming 
by the end of the 21st Century. Thus, due to natural variability of the 
climate, periods of a decade or two that show no warming are expected, 
even with strong warming by the end of this century.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 3. One realization of the globally averaged surface air 
temperature from the ECHAM5 coupled climate model forced with the SRES 
A2 greenhouse gas increase scenario for the 21st Century.

    Question 6. Would it be accurate to state that the climate cooled 
between 1940 and 1975 while CO<INF>2</INF> levels rose rapidly after 
WW-II?
    Answer. After rising rapidly during the first part of the 20th 
century, global average surface temperature did cool somewhat (on the 
order of 0.2+C) in the period from 1940 to about 1975. During this time 
period, increases in reflective particles in the atmosphere, from both 
industrial activities and volcanoes, more than compensated for the 
increases in the concentration of CO<INF>2</INF>. Thereafter, the 
increasingly rapid rise of CO<INF>2</INF> came to dominate, with the 
help of pollution-control measures that reduced particle concentrations 
without doing anything about CO<INF>2</INF>.
    When the best estimates of the time histories of radiative forcing 
by anthropogenic greenhouse gases and particulate matter are included 
in modern climate models, along with solar variability and volcanic 
eruptions, they reproduce with remarkable fidelity the temperature 
trajectory observed over the 20th Century, including the cooling period 
between 1940 and 1975.

    Question 7. Why is it that climate models try to picture such 
events as `anomalous' and adjust their model assumptions only AFTER the 
fact?
    Answer. Scientists are not suggesting that the cooling period from 
1940 to 1975 was ``anomalous''--as noted above, it is explained by 
current understandings of the relative importance of positive and 
negative forcings, natural and anthropogenic, over time. It may be 
added that science routinely proceeds by identifying discrepancies 
between theory and measurement, or between modeling and measurement, 
and then seeking to determine whether it is the theory (and/or models) 
are flawed, or the measurements that are lacking. Global climate models 
and our understanding of Earth's climate system, as well as our ability 
to make systematic measurements of climate parameters, continue to 
improve through this interplay between scientific theory and 
observations.

    Question 8. Do you agree that CO<INF>2</INF> is essential to plant 
growth--and all agriculture? As well, are you aware of current projects 
to convert algae to biofuels that are looking at injecting 
CO<INF>2</INF> to increase growth? Would such projects be working under 
the assumption that increased CO<INF>2</INF> can increase plant growth?
    Answer. Yes, CO<INF>2</INF> is an essential input to photosynthesis 
in both natural and managed vegetation. And, under some circumstances, 
including adequate availability of water, nutrients, and sunlight, 
increasing the amount of CO<INF>2</INF> available to plants will 
increase their productivity. This is indeed the idea behind projects to 
accelerate the growth of algae, for conversion to biofuels, with the 
use of CO<INF>2</INF> emitted by fuel-burning power plants.
    As for the effects on plant growth of the ongoing build-up of 
atmospheric CO<INF>2</INF> as a result of human activities, the picture 
is complicated because of the changes in temperature and other climatic 
variables that accompany the CO<INF>2</INF> increase. The conventional 
wisdom about effects of climate change on the productivity of farms and 
forests, up until a few years ago, was that modest increases in 
temperature accompanied by increases in atmospheric CO<INF>2</INF> and 
rainfall (which increases in a warmer world because evaporation 
increases) would lead to increases in plant growth in many regions and 
thus to increases in crop yields and sustainable forest output. Only 
when the global average temperature increase reached 3.6+F (2+C) or 
more above the pre-industrial value, it was thought, would the effects 
of heat stress on plants offset the beneficial effects of increased 
CO<INF>2</INF> and increased rainfall in enough places to lead to 
declines in farm and forest productivity on a global basis.
    Recent improvements in understanding of plant physiology, the 
ecology of plant pests and pathogens, and the implications of changes 
in average temperatures for temperature extremes and for changes in the 
patterns of precipitation and evaporation--all underpinned not just by 
theory and modeling but by observations--have changed this picture for 
the worse. It now seems that many plants are less helped by extra 
CO<INF>2</INF> and more hurt by heat stress and pests and pathogens 
(which generally do better in a warmer climate) than had been thought. 
Crop and forest productivity is being further imperiled in many regions 
by increased incidence of drought, which tends to increase in a warmer 
world, despite an increase in global precipitation, in part because 
more of the rainfall occurs in extreme events (with more of the water 
lost to storm runoff) and the intervals between these events often 
increase (with more soil drying from the combination of the longer 
interval and higher temperatures).

    Question 9. If indeed the observed 20th Century warming is not due 
to CO<INF>2</INF> increase but is naturally caused--likely a recovery 
from the Little Ice Age--do you see any point to limiting the emission 
of CO<INF>2</INF>?
    Answer. The scientific evidence is very strong that the pronounced 
warming of the last part of the 20th Century, continuing into the 21st, 
has been and is being driven primarily by the buildup in the atmosphere 
of CO<INF>2</INF> and other heat-trapping gases and particles caused by 
human activities. The so-called ``Little Ice Age'' (which was not a 
glacial period but a moderate cooling) was a regional (Europe) rather 
than a global phenomenon. Scientific consensus clearly indicates that 
the first part of the question is a faulty premise as global warming is 
unequivocal and primarily human-induced (IPCC 2007) and there is no 
plausibility to the proposition that the observed global warming could 
be a ``recovery'' from a regional cooling. If one did, nonetheless, 
believe that the recent warming was mainly explained by such a 
recovery, there would still be a good argument for trying to avoid the 
adverse impacts of the further warming that the solid science of 
greenhouse-gas influences indicates will be the result of further 
CO<INF>2</INF> build-up in the atmosphere.
    In addition to the warming caused by increasing amounts of 
atmospheric CO<INF>2</INF>, the recently released U.S. Global Change 
Research Program (USGCRP) report entitled ``Global Change Impacts in 
the United States'' (2009) states the following:

        ``In addition to carbon dioxide's heat-trapping effect, the 
        increase in its concentration in the atmosphere is gradually 
        acidifying the ocean. About one-third of the carbon dioxide 
        emitted by human activities has been absorbed by the ocean, 
        resulting in a decrease in the ocean's pH. Since the beginning 
        of the industrial era, ocean pH has declined demonstrably and 
        is projected to decline much more by 2100 if current emissions 
        trends continue. Further declines in pH are very likely to 
        continue to affect the ability of living things to create and 
        maintain shells or skeletons of calcium carbonate. This is 
        because at a lower pH less of the dissolved carbon is available 
        as carbonate ions.

        ``Ocean acidification will affect living things including 
        important plankton species in the open ocean, mollusks and 
        other shellfish, and corals. The effects on reef-building 
        corals are likely to be particularly severe during this 
        century. Coral calcification rates are likely to decline by 
        more than 30 percent under a doubling of atmospheric carbon 
        dioxide concentrations, with erosion outpacing reef formation 
        at even lower concentrations. In addition, the reduction in pH 
        also affects photosynthesis, growth, and reproduction. The 
        upwelling of deeper ocean water, deficient in carbonate, and 
        thus potentially detrimental to the food chains supporting 
        juvenile salmon has recently been observed along the U.S. West 
        Coast.''

    Question 10. If the G-5 (China, India, Brazil, Mexico and South 
Africa) and Russia do not commit to legally verifiable reductions, at 
what point will the global concentrations reach 450 ppm GHG?
    Answer. The Intergovermental Panel on Climate Change (IPCC) Fourth 
assessment report stated in 2007 that, ``The total CO<INF>2</INF>-
equivalent concentration of all long-lived GHGs is now about 455 ppm 
CO<INF>2</INF>-eq.'' Incorporating the cooling effect of aerosols, 
other air pollutants and gases released from land-use change into the 
equivalent concentration, leads to an effective total CO<INF>2</INF>-eq 
concentration of about 380 ppm. Future greenhouse gas emissions, and 
the resultant atmospheric concentrations, depend on future demographic, 
economic, and technological developments, all of which are uncertain. 
If we assume that the Organisation for Economic Cooperation and 
Development (OECD) countries reduce their combined emissions to 80 
percent below 1990 levels by 2050, and that there is no reduction below 
the IPCC's reference scenarios in the combined emissions of the non-
OECD countries, then the total radiative forcing would reach the 
equivalent of 450 ppmv of carbon dioxide by 2045, plus or minus 5 
years. Stabilizing the atmosphere at less than 450 ppmv CO<INF>2</INF>-
equivalent would require significant emission reductions by non-OECD 
countries to begin before 2030. Legally binding commitments by these 
countries that they will do so are highly desirable, though other 
options should also continue to be explored.

    Question 11. If the global target of 50 percent reduction of 
emissions by 2050 is to be achieved, what is the corresponding U.S. 
reduction required by 2030, 2040, and 2050? Provide this answer 
assuming that there are no commitments as described in Q-10 above?
    Answer. The reduction in U.S. emissions that is required to achieve 
a given global reduction depends on the emissions of other countries. 
The emissions of all other countries are not specified in the question. 
If, however, we assume that there is no reduction below the reference 
scenarios in non-OECD emissions, then it is impossible to achieve a 
global target of a 50 percent reduction in emissions by 2050. This is 
because the projections of future emissions from non-OECD countries in 
the reference scenarios exceed current total world emissions.

    Question 12. You recently shared that the idea of geoengineering 
the climate is being discussed at the White House. You have also shared 
that one such extreme option includes shooting pollution particles into 
the upper atmosphere to reflect the sun's rays and that such an 
experimental measure would only be used as a last resort. Can you 
discuss what technologies you have discussed with fellow staff, and the 
cost-benefit analysis the White House is using? In addition, can you 
share why this would be necessary if the earth continues to cool at the 
same pace it has over the last 7+ years?
    Answer. The reporter's question that I answered in the affirmative 
was whether geoengineering had ever been mentioned in conversations 
about climate change in the White House. In my answer I indicated that 
there is probably no aspect of the climate-change issue that has not 
been mentioned in such discussions, and I went on to say that, as a 
scientist, my personal view is that we need to look at all of the 
possibilities in order to understand their potential leverage, their 
limitations, their costs, and their side effects. None of this is the 
same as saying, as was erroneously reported, that geoengineering is 
currently ``under consideration'' to be a component of the White 
House's climate strategy.
    Indeed, the ``mentions'' of geoengineering in White House 
discussions of which I am aware have largely been unfavorable, based on 
current understandings suggesting that effectiveness would be low in 
relation to costs and risks, except in the case of such simple (and 
limited) measures as making roofs and pavement white instead of black 
in order to reflect sunlight that otherwise would be absorbed. But I 
think most would agree that geoengineering ideas should continue to be 
studied and evaluated in the scientific community, in case something 
more promising can be identified. The reason for continuing scientific 
attention to all of the possibilities for both mitigation of global 
climate change (measures to reduce its pace and magnitude) and 
adaptation to it (measures to reduce the damages from the degree of 
climate change we fail to avoid) is that the great bulk of the 
scientific evidence indicates that warming is continuing (see answer to 
Question 5) and that the growth of impacts from it is accelerating.

    Question 13. Can you explain how it is possible to increase the 
cost of energy (which would include everything from electricity and 
fuel to heat a home, to gasoline, manufactured goods and food) on the 
poor without reducing their standard of living or limiting their 
freedom?
    Answer. Under a cap-and-trade program, an increase in the cost of 
energy for low-income households can be offset through a variety of 
methods of returning a portion of the value of emissions allowances to 
households. For example, a system in which most allowances were 
auctioned, and most of the auction revenue was returned to households 
through a tax credit on a per-capita basis, could provide a net benefit 
to low-income households. By creating incentives for consumers to 
conserve energy and consumption of energy-intensive goods and services, 
this approach is more economically efficient than an alternative that 
effectively shields households from seeing any changes in energy 
prices. In fact, the Congressional Budget Office (CBO) has estimated 
that H.R. 2454, which would implement a cap-and-trade system to reduce 
GHG emissions, would provide net benefits to households in the lowest 
income quintile in 2020: CBO estimated that the bill would impose 
average gross costs of $425 per household in the lowest income quintile 
in 2020, but also provide an average financial benefit of $465 to these 
households. In addition, demand response, weatherization programs and 
improved energy-efficiency standards for vehicles and appliances could 
lead to net reductions in family expenditures on energy despite higher 
energy prices. For example, households may reduce their demand for 
energy and energy-intensive goods in response to a carbon price, which 
then makes them less vulnerable to future increases in the prices of 
energy.

    Question 14. Why is it that India believes it is necessary to 
increase their fossil fuel consumption, and as a consequence their GHG 
emissions, in order to bring a significant portion of their population 
out of poverty?
    Answer. Per-capita energy use in India is currently 20 times less 
than in the United States, 10 times less than in most other developed 
countries, and 4 times less than in China. Today, 40 percent of India's 
population does not have access to electricity. Improved energy 
services are necessary for the continued economic development of India. 
Increasing the efficiency of energy use can make a substantial 
contribution to improved energy services, but India's total energy 
consumption is likely to continue to increase for some time. In the 
near-term, these increases will be provided mostly by fossil fuels, 
because they are the options currently most available at scale at 
competitive costs. In the longer term, increased reliance on low-carbon 
energy sources, such as wind, solar, modern biomass, and nuclear 
energy, as well as the use of carbon sequestration, can largely 
decouple economic development from greenhouse gas emissions.

                                  <all>

</pre></body></html>
